<html>
<title> - ONE FLIGHT AWAY: AN EXAMINATION OF THE THREAT POSED BY ISIS TERRORISTS WITH WESTERN PASSPORTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




ONE FLIGHT AWAY: AN EXAMINATION OF THE THREAT POSED BY ISIS TERRORISTS 
                         WITH WESTERN PASSPORTS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER
                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2014

                               __________

                           Serial No. 113-84

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                  __________
      

                     U.S. GOVERNMENT PUBLISHING OFFICE 

92-901 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                           
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Vacancy
Curtis Clawson, Florida              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
            Paul L. Anstine, II, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Joe Heck, a Representative in Congress From the 
  State of Nevada:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Troy Miller, Acting Assistant Commissioner, Intelligence and 
  Investigative Liaison, U.S. Customs and Border Protection, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................    11
Mr. John P. Wagner, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................    11
Ms. Jennifer A. Lasley, Deputy Under Secretary for Analysis, 
  Office of Intelligence and Analysis, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    18
  Joint Prepared Statement.......................................    11
Ms. Hillary Batjer Johnson, Acting Deputy Coordinator, Homeland 
  Security and Multilateral Affairs, Bureau of Counterterrorism, 
  U.S. Department of State:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                             For the Record

The Honorable Beto O'Rourke, a Representative in Congress From 
  the State of Texas:
  Article, El Paso Herald-Post...................................    38

                                Appendix

Question From Honorable Beto O'Rourke for Troy Miller............    47
Question From Honorable Beto O'Rourke for John P. Wagner.........    47
Question From Honorable Beto O'Rourke for Jennifer A. Lasley.....    47
Question From Honorable Beto O'Rourke for Hillary Batjer Johnson.    47

 
ONE FLIGHT AWAY: AN EXAMINATION OF THE THREAT POSED BY ISIS TERRORISTS 
                         WITH WESTERN PASSPORTS

                              ----------                              


                     Wednesday, September 10, 2014

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Barletta, Clawson, 
Thompson, Jackson Lee, and O'Rourke.
    Mrs. Miller. The Committee on Homeland Security, the 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to examine the threat 
posed by ISIS foreign fighters who are holding Western 
passports. We are very pleased today to be joined by Mr. Troy 
Miller, who is the acting assistant commissioner at the U.S. 
Customs and Border Protection. Mr. John Wagner, a frequent 
testifier to our subcommittee here, and we appreciate him 
coming back. He is the assistant commissioner at the U.S. 
Customs and Border Protection.
    Ms. Jennifer Lasley--we welcome you, the deputy under 
secretary for analysis at DHS's Office of Intelligence and 
Analysis. Ms. Hillary Johnson, the acting deputy coordinator 
for homeland security and multilateral affairs at the State 
Department's Bureau of Counterterrorism. I will introduce them 
a bit more formally shortly.
    Tomorrow marks the 13th anniversary of the most heinous and 
cowardly attack in the history of our Nation, certainly a 
terrorist attack that took the lives of nearly 3,000 of our 
fellow Americans. It happened in part because our visa security 
and border security defenses were not very effective. Among the 
most important weaknesses that the attackers were able to 
exploit was our porous outer ring of border security. In total, 
the 19 hijackers passed through the U.S. border security 68 
times back and forth without being detected.
    On that day in September, we learned a very hard lesson. As 
noted by the 9/11 commission, ``For terrorists, travel 
documents are as important as weapons.'' I think that is a 
very, very important statement by them. It is so true.
    Many more terrorists since have exploited the visa system 
in one fashion or another, and it is an on-going vulnerability, 
certainly one heightened by the significant growing threat that 
the Islamic State of Iraq and Syria pose to our Nation. Our 
best estimates are that thousands of individuals carrying 
Western passports have joined in the fight in Syria and in 
Iraq, including several hundred Americans.
    Two innocent American journalists, James Foley and Steven 
Sotloff, were brutally beheaded by an ISIS terrorist who is 
likely a British citizen. These thugs have no regard for life 
and have threatened to attack our homeland, and the United 
States Government must be prepared to prevent such an act from 
happening. Terrorists with Western passports pose an additional 
risk to the homeland because many are eligible for visa-free 
travel through the Visa Waiver Program. Terrorists could be 
just one visa-free flight away from arriving in the United 
States, bringing with them their skills and their training and 
their ideology and their commitment to killing Americans, all 
these things that they have learned overseas.
    Let us remember that Zacharias Moussaoui, the so-called 
20th hijacker, actually traveled on the Visa Waiver Program 
before he enrolled in a Minneapolis flight school. Richard 
Reed, the shoe bomber who tried to ignite explosives in his 
shoe, also traveled on the Visa Waiver Program. Ramzi Yousef, 
who was one of the main perpetrators of the 1993 World Trade 
Center bombing, again used the Visa Waiver Program to enter the 
country.
    These attacks occurred before the advent of increased 
scrutiny on the visa waiver countries. While I think we are 
confident that we can identify many threats today through the 
electronic system for travel authorization, commonly called 
ESTA--we will be talking about ESTA quite a bit in our hearing 
today--which all these waiver applicants have to fill out, it 
is clear that we may have trouble determining if some 
individuals have traveled to terrorist regions.
    Although CBP continuously vets all visa applicants against 
our terrorism holdings, that information is imperfect if we do 
not have a complete picture of an individual's travel route. 
Collecting more information up front could be very, very 
helpful for us to do just that.
    Patriot and other pilot programs that look at the totality 
of data on an ESTA and visa application are certainly good 
tools to help close some of our intelligence gaps and make 
connections that we would otherwise miss. However, critical 
information sharing, especially with our European allies, is 
critical to help combat the threat of foreign fighters bound 
for the United States. Unfortunately, Europe as a whole has 
been reluctant to share certain passenger name record data, or 
PNR data, as we call it, with the United States, and such a gap 
certainly puts our citizens in the United States at risk.
    I want to commend our allies in the United Kingdom, who 
have been quick to realize the severity of the threat, 
especially as many Brits are among the ISIS fighters. We must 
work with our foreign allies like the United Kingdom and others 
to quickly identify those radicalized by ISIS and similar 
groups and prevent them from traveling to the United States.
    Like the United Kingdom, I also think we should be looking 
at the authority that we have or we may need--and that will be 
a big part of our discussion here this morning--to revoke 
passports of American citizens who go to fight in ISIS. We need 
to reduce their ability to travel to the United States, and I 
think we need to consider what it will take to strip passports 
from those who provide support to or fight with terrorists.
    I certainly look forward to hearing from our witnesses 
today on what further changes we have made in our visa security 
system to combat the threat of foreign fighters who travel 
often overland through neighboring Turkey's porous border, into 
Syria and into Iraq before returning home to Europe. It might 
be hard for many Americans to comprehend, but for many in 
Europe, traveling to Syria is as simple as just getting in 
their car and driving there.
    Today's hearing is really about one simple question. Can 
the United States Government adequately detect terrorists' 
travel patterns, identify suspicious movement, and prevent 
those who would do us harm from coming into the United States? 
How can we best protect our homeland? Our enemies are intent on 
attacking our country and are actively seeking to avoid our 
countermeasures. We need to be one step ahead instead of 
constantly reacting to their latest attack.
    Defeating terrorists' ability to move internationally has 
long been a focus area for this subcommittee. Terrorists who 
have plotted horrific attacks against us have crossed the U.S. 
border for training or fraudulently obtaining a student or a 
work visa. There are certainly further opportunities that we 
can take to prevent attacks and to limit terrorists' mobility, 
and that is why we are holding this hearing today. Our visa 
security process obviously needs to be robust, and we must deny 
terrorists freedom of movement because 13 years ago, we 
unfortunately saw what failure looked like.
    The Chairwoman would now recognize the Ranking Minority 
Member of this subcommittee, the gentlelady from Texas, Ms. 
Jackson Lee, for her opening statement.
    Ms. Jackson Lee. Good morning. Let me thank the Chairwoman 
for yielding. Let me also acknowledge the Ranking Member of the 
full committee, Mr. Thompson, and thank him for his leadership, 
as he is joined by the Chairman of the full committee, Mr. 
McCaul, and the way that they have worked diligently to provide 
leadership in securing the homeland.
    As I often remind our colleagues and as often as we are 
questioned by our constituents, the Homeland Security Committee 
is a pivotal committee that stands in the gap, making sure that 
the needs of our Nation, domestic needs in protecting the 
homeland, are the priority and recognized by the American 
people as having a department and a committee that is clearly 
assigned to protect the homeland.
    September 11 continues to be a symbol for all of the 
untoward terrorists across and around the world. They view that 
as a challenge to them every year, as to whether or not they 
can continue to intimidate the Western world, and of course, 
the United States of America. Our values are contrary to their 
beliefs, and therefore, 9/11 poses for all of us a time of 
recognition that we still remain in the eye of the storm, and 
we must be diligent.
    I would offer to say that we will not fall victim to the 
terrorists' intent, and that is that we will not terrorize 
ourselves. We will be vigilant, which I believe is extremely 
important, but we will be fair and just, and we will recognize 
the civil liberties of all.
    But we are in some very challenging and difficult times, 
and so I want to thank the Chairwoman for allowing us and this 
committee in working with me and the full committee to be the 
very first committee that is addressing the question of ISIS 
here in the United States Congress upon our return. That is an 
important statement, for Homeland Security, Armed Services, the 
Intelligence Committee are the cornerstone of defending this 
Nation, and our collaboration and working together is key. That 
we are doing.
    This fact-finding hearing will lay the groundwork for many 
other hearings that will be necessary to expeditiously address 
this question. This evening, the President will address the 
Nation and discuss new protocols as to how we confront ISIS, 
and as he has indicated, degrade and end ISIS. So I am not 
willing to cede the point that ISIS does not represent a threat 
to the United States.
    I did not say imminent. I did not say today. But I believe 
this hearing recognizes that ISIS is a threat to the United 
States and to the people of the United States. Again, not in 
the instance of being intimidated, but being prepared to 
protect the people of the United States of America.
    Like all Americans, I was horrified, outraged, and saddened 
by the beheadings of two American journalists, James Foley and 
Steven Sotloff, by ISIL terrorists in Syria. ISIL has used 
ruthless, brutal remedies and tactics to expand its control 
over areas of northwestern Iraq, northeastern Syria, 
threatening the security of both countries. They have attacked, 
killed, kidnapped, and displaced thousands of religious and 
ethnic minorities in the region, including Christians and 
including small ethnic minority groups.
    U.S. officials have warned that Syria-based terrorist 
extremists may also pose a direct threat to our homeland. One 
concern is that foreign fighters holding Western passports 
might travel to this country to carry out a terrorist attack. 
Additionally, our own U.S. citizens are known to have likewise 
left the United States and gone to the battlefield to 
perpetrate jihad.
    The total number of armed opposition fighters engaged with 
various groups in Syria, including ISIL, is estimated at 
between 75,000 to 100,000 persons. Of those, the U.S. 
Government estimates 12,000 are foreign fighters. Among those 
foreign fighters are estimated to be more than 1,000 
individuals from Europe and over 100 from the United States, 
with about a dozen American fighters with ISIL specifically.
    We may be reminded on 9/11, the count was approximately 19 
who created the most heinous terrorist act, killing over 3,000 
here in the United States of America. We mourn for them and 
their families.
    Many have expressed particular concern about Western 
foreign fighters because they hold passports from countries 
that participate in the Visa Waiver Program, which generally 
allows them to travel to the United States without accepting--
without obtaining a visa. I want assurances today that these 
individuals have been appropriately watch-listed, and I want to 
discuss and look at whether or not we need to make the No-Fly 
List more robust and would look to the idea of legislation 
quickly passed that makes sure that we shore up the No-Fly 
List, not to undermine civil liberties but to protect the 
Nation. I am interested in a discussion of that going forward 
in Classified or what is available today.
    I would note, however, that while these waiver travelers 
usually do not need a visa to visit this country, they are 
currently vetted both prior to departure and upon arrival to 
the United States. I expect that we will discuss that process 
in more detail at this hearing. Similarly, some are concerned 
about U.S. citizens who travel to the fight and then seek to 
return to the country by air. We are aware of two individual 
suicide bombers from the United States who recently died in 
battle.
    I expect discussion today about what DHS and its Federal 
partners can do to address such situations beyond adding 
individuals to the No-Fly List, if and when the need arises. 
Indeed, the Departments of Homeland Security and State play a 
vital role in disrupting terrorists' travel to the United 
States.
    This subcommittee has previously examined U.S. visa 
security and passenger prescreening programs which are 
essential to addressing the foreign fighter threat to the 
homeland. I hope our DHS and State Department witnesses can 
speak to us about how these programs operate and how they can 
be used to address concerns regarding the VWP travel 
specifically.
    I also hope to hear from our State Department witnesses 
about how we engage--and how we are engaging with our foreign 
partners to help address information gaps regarding individuals 
of concern and their travel patterns. Like Chairwoman Miller, I 
am glad that Europe is standing up. I believe that they should 
stand up and collaborate. While we maintain our values, we can 
secure this Nation.
    While the United States cannot resolve the larger situation 
in Syria and Iraq in its totality, we can do it collaboratively 
with our Mideast allies and our Western allies. We do have the 
responsibility to protect the homeland from threats from ISIL 
and similar terrorist organizations. Be mindful--as we mourn 
and commemorate 9/11, be mindful of the fact that we have work 
to do.
    I therefore strongly encourage the administration and 
Congressional leadership to ensure that all relevant 
committees, including Intelligence, Armed Services, and 
Homeland Security, are included in briefings so that there can 
be a collaborative strategy in conjunction with the 
administration, so we can work collaboratively together and 
address these issues. I know that our Chairpersons and Ranking 
Members are prepared to do so.
    Finally, I look forward to the President's address to the 
Nation tonight as he outlines his plan for combatting ISIL. I 
remain committed to working with any of my colleagues on this 
committee and will look forward to the appropriate legislation 
that we would hope will be expedited and passed to ensure the 
safety and security of the homeland. It is our duty and it is 
our challenge.
    With that, I yield back the balance of my time.
    [The statement of Ranking Member Jackson Lee follows:]
             Statement of Ranking Member Sheila Jackson Lee
                           September 10, 2014
    I am pleased to join Chairwoman Miller in holding today's hearing 
to discuss the Federal Government's efforts to identify foreign 
fighters in Syria and Iraq who may seek to travel to the United States 
to do our Nation harm. This hearing could not be more timely.
    Like all Americans, I was horrified, outraged, and saddened by the 
beheadings of two American journalists--James Foley and Steven 
Sotloff--by ISIL terrorists in Syria. ISIL has used ruthless, brutal 
tactics to expand its control over areas of northwestern Iraq and 
northeastern Syria, threatening the security of both countries.
    They have attacked, killed, kidnapped, and displaced thousands of 
religious and ethnic minorities in the region, including Christians and 
Yazidis. U.S. officials have warned that Syria-based terrorist 
extremists may also pose a direct threat to our homeland.
    One concern is that foreign fighters holding Western passports 
might travel to this country to carry out a terrorist attack. The total 
number of armed opposition fighters engaged with various groups in 
Syria, including ISIL, is estimated at between 75,000 and 110,000 
persons. Of those, the U.S. Government estimates 12,000 are foreign 
fighters.
    Among these foreign fighters are estimated to be more than 1,000 
individuals from Europe and over 100 from the United States, with about 
a dozen Americans fighting with ISIL specifically. Many have expressed 
particular concern about Western foreign fighters, because they hold 
passports from countries that participate in the Visa Waiver Program 
(VWP), which generally allows them to travel to the United States 
without obtaining a visa.
    I want assurances today that these individuals have been 
appropriately watch-listed and placed on the No-Fly List, and would 
welcome the opportunity to discuss their status in more detail outside 
of this open setting if necessary. I would note, however, that while 
VWP travelers usually do not need a visa to visit this country, they 
are currently vetted both prior to departure and upon arrival in the 
United States.
    I expect we will discuss that process in more detail at this 
hearing. Similarly, some are concerned about U.S. citizens who travel 
to the fight and then seek to return to this country by air. I expect 
discussion today about what DHS and its Federal partners can do to 
address such situations, beyond adding individuals to the No-Fly List, 
if and when the need arises.
    Indeed, the Departments of Homeland Security and State play a vital 
role in disrupting terrorist travel to the United States. This 
subcommittee has previously examined U.S. visa security and passenger 
prescreening programs, which are essential to addressing the foreign 
fighter threat to the homeland.
    I hope our DHS and State Department witnesses can speak to us about 
how these programs operate and how they can be used to address concerns 
regarding VWP travel specifically. I also hope to hear from our State 
Department witness about how we are engaging with our foreign partners 
to help address information gaps regarding individuals of concern and 
their travel patterns. While the United States cannot resolve the 
larger situation in Syria and Iraq, we have a responsibility to protect 
the homeland from threats from ISIL and similar terrorist 
organizations.
    I therefore strongly encourage the administration and Congressional 
leadership to ensure that all relevant committees, including 
Intelligence, Armed Services, and Homeland Security, are included in 
briefings on this matter, so we can work cooperatively to address the 
various threats posed by ISIL to the United States, both around the 
world and here in the homeland.
    Finally, I look forward to the President's address to the Nation 
tonight as he outlines his plan for combating ISIL. I remain committed 
to working with my colleagues on this committee and across Congress to 
help keep America secure.

    Mrs. Miller. The Chairwoman now recognizes the Ranking 
Member of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for his opening statement.
    Mr. Thompson. Thank you very much, Chairman Miller, Ranking 
Member Jackson Lee. Thank you for holding today's hearing. I 
would also like to thank the witnesses for appearing to testify 
about the Federal Government's efforts to identify foreign 
fighters in Syria and Iraq who may seek to travel to the United 
States to do our Nation harm.
    Since its establishment in the wake of the terrorist attack 
of 
9/11, this committee has been engaged in helping to address the 
threats posed by terrorists' travel. For example, Members of 
the committee advocated for a key provision in the 9/11 Act 
requiring the implementation of an electronic system for travel 
authorization to enhance the security of the Visa Waiver 
Program.
    This committee also examined the lessons learned from the 
attempted bombing of Flight 253 on Christmas day 2009 and urged 
DHS and the rest of the intelligence community to strengthen 
programs aimed at identifying and interdicting travelers to 
this country who might do us harm.
    Today, we turn our attention to the threat posed by foreign 
fighters with Islamic State of Iraq and Lebanon, ISIL, 
particularly those holding Western passports, who could attempt 
to travel to this country without obtaining a visa. Top U.S. 
officials have made public statements warning that Syria-
trained extremists, including foreign fighters linked with 
ISIL, may pose a direct threat to this country. Law enforcement 
and intelligence officials know that individuals from North 
America and Europe that travel to Syria could be exposed to 
radical and extremist influences before returning to their home 
country.
    As Ranking Member Lee has already said, the U.S. Government 
estimates that there are 12,000 foreign fighters who have 
traveled to Syria to engage in the on-going civil war, 
including more than 1,000 Europeans and over 100 U.S. citizens. 
Of those 100 U.S. citizens fighting in the region, about a 
dozen are believed to be fighting along ISIL.
    I hope our conversation today provides insight into the 
full scope of foreign fighter issues facing the U.S. 
Government, as well as how we, along with our foreign partners, 
can maximize our intelligence and information sharing regarding 
these individuals. With that in mind, I want to hear from the 
Department of Homeland Security and Department of State 
witnesses about their on-going work to identify and interdict 
foreign fighters coming to the United States, and whether or 
not they need to increase their efforts in response to ISIL.
    We know that the threat posed by ISIL foreign fighters is 
very real and serious. The American people want assurances that 
our Government response is and will continue to be equal to the 
task at hand. Again, I thank the witnesses for joining us today 
and the Members for holding this hearing.
    Madam Chairwoman, with that, I also yield back the balance 
of my time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 10, 2014
    I would like to thank the witnesses for appearing to testify 
regarding the Federal Government's efforts to identify foreign fighters 
in Syria and Iraq who may seek to travel to the United States to do our 
Nation harm. Since its establishment in the wake of the terrorist 
attacks of 9/11, this committee has been engaged in helping to address 
the threats posed by terrorist travel. For example, Members of the 
committee advocated for a key provision in the Implementing 9/11 
Commission Recommendations Act of 2007 (Pub. L. 110-53) requiring the 
implementation of an Electronic System for Travel Authorization to 
enhance the security of the Visa Waiver Program.
    This committee also examined the lessons learned from the attempted 
bombing of Flight 253 on Christmas day 2009 and urged DHS and its 
Federal partners to strengthen programs aimed at identifying and 
interdicting travelers to this country who might do us harm. Today, we 
turn our attention to the threat posed by foreign fighters with the 
Islamic State of Iraq and the Levant (ISIL), and particularly those 
holding Western passports who could attempt to travel to this country 
without obtaining a visa. Top U.S. officials have made public 
statements warning that Syria-based extremists, including foreign 
fighters linked to ISIL, may pose a direct terrorist threat to this 
country.
    U.S. law enforcement and intelligence officials know that 
individuals from North America and Europe have gone to Syria and will 
be exposed to radical and extremist influences before possibly 
returning to their home countries, possibly with intent to do harm. 
Recent U.S. Government estimates indicate 12,000 foreign fighters have 
travelled to Syria to engage in the on-going fighting, including more 
than 1,000 Europeans and over 100 U.S. citizens. Of those 100 U.S. 
citizens fighting in the region, about a dozen are believed to be with 
ISIL in particular.
    I hope our conversation today provides insight into the full scope 
of foreign fighter issues facing the U.S. Government as well as how we, 
along with our foreign partners, can redouble our intelligence, 
information sharing, and response regarding these individuals. With 
that in mind, I want to hear from the Department of Homeland Security 
and Department of State witnesses about their on-going work to identify 
and interdict foreign fighters coming to the United States, and whether 
they need to increase their efforts in response to ISIL. We know that 
the threat posed by ISIL foreign fighters is very real and serious. The 
American people want assurances that our Government's response is and 
will continue to be equal to the task at hand.

    Mrs. Miller. I thank the gentleman very much for his 
opening statement.
    I would--before we begin, would ask unanimous consent that 
a written statement offered by the gentleman from Nevada, Mr. 
Heck, be included in the record.
    Without objection, so ordered.
    [The statement of Hon. Heck follows:]
                    Statement of Honorable Joe Heck
                           September 10, 2014
    Chairwoman Miller and Ranking Member Jackson Lee: Thank you for 
allowing me to submit my statement to the record. Like my colleagues 
that sit on this committee, one of my top priorities as a Member of the 
House of Representatives is to protect and advance our country's 
National security efforts.
    I am very pleased that the Homeland Security Subcommittee on Border 
and Maritime Security is having this hearing today to examine the 
growing threat from ISIL. As we have seen in the media these past few 
months, the threat from ISIL is very real. They are a violent terrorist 
organization that threatened our homeland and brutally murdered two of 
our citizens. Reports indicate that hundreds of ISIS members 
potentially hold passports from Western allied countries. This is 
certainly cause for alarm and this committee is right to examine this 
issue. But what must not get lost in this discussion are the benefits 
of the Visa Waiver Program (VWP).
    As you know, VWP allows citizens from specific countries to travel 
to the United States for up to 90 days without first obtaining a B1/B2 
visa, also known as a tourist visa. Given the name and the way the 
program facilitates travel to the United States, I understand how one 
may initially question the role VWP plays in our National security 
efforts. However, the VWP imposes stringent compliance requirements in 
order for countries to participate.
    Those requirements include:
    1. A visa refusal rate below 3%; a condition that must be met 
        before initial designation into VWP.
    2. Issuance of International Civil Aviation Organization (ICAO)-
        compliant electronic passports.
    3. Reporting of all lost and stolen passports to the United States 
        via INTERPOL or other means as designated by the Secretary of 
        Homeland Security.
    4. Completion of information-sharing agreements with the United 
        States on travelers who may pose a terrorist or criminal 
        threat.
    5. Repatriation of criminal aliens.
    6. Initial and continuing reviews to determine that a country's VWP 
        designation does not compromise U.S. security, law enforcement, 
        and immigration interests.
    7. Independent intelligence assessment of each VWP country in 
        conjunction the previously-mentioned DHS reviews.
    Additionally, once a country does become a VWP member, the 
continual coordination between our intelligence community and of the 
Members provides constant security assessments that help protect us 
against potential threats.
    The Visa Waiver Program is an effective program that facilitates 
legitimate travel to the United States while at the same time providing 
enhanced scrutiny of travelers from participating countries. I 
understand the concerns that some have, but ultimately preventing a 
terrorist attack on our homeland is dependent largely upon intelligence 
sharing with our allies, which the VWP facilitates.
    I am eager to review the testimony and the hearing record in the 
next few days, as well as potential opportunities to further strengthen 
VWP. Again, thank you Chairwoman Miller and Ranking Member Lee for 
allowing me to submit my statement. I look forward to working with you 
on this very important National security program

    Mrs. Miller. Other Members of the committee are reminded 
that opening statements might be submitted for the record.
    Again, we are pleased to have some very distinguished 
witnesses with us today to discuss this very important topic. 
Let me more formally introduce them, and then we will just 
start.
    Mr. Troy Miller serves as the acting assistant commissioner 
for the Office of Intelligence and Investigative Liaison. Mr. 
Miller and his team are responsible for implementation of 
intelligence and targeting capabilities, supporting the primary 
mission of securing America's border by facilitating legitimate 
travel and trade. Mr. Miller began his career in 1993 as a 
customs inspector in North Dakota and has since held various 
positions throughout CBP.
    Mr. John Wagner is the assistant commissioner for the 
Office of Field Operations at the U.S. Customs and Border 
Protection. Mr. Wagner formerly served as executive director of 
admissibility and passenger programs with responsibility for 
all traveler admissibility-related policies and programs.
    Ms. Jennifer Lasley is the deputy under secretary for 
analysis at DHS's Office of Intelligence and Analysis, a 
position that she has held since April 2013. In this role, Ms. 
Lasley leads the DHS office charged with providing all-source 
intelligence analysis of threats to the homeland. Prior to this 
assignment, she served as vice deputy director for analysis at 
the Defense Intelligence Agency.
    Ms. Hillary Johnson is the acting deputy coordinator for 
homeland security and multilateral affairs in the State 
Department's Bureau of Counterterrorism. In this capacity, she 
oversees whole-of-Government approaches to protecting the 
homeland on cross-cutting issues such as transportation and 
cargo security, global supply chain security and terrorism 
screening and interdictions programs to include terrorism 
information-sharing negotiations and agreements with foreign 
partners to combat terrorist travel.
    With that, the Chairwoman would recognize Mr. Miller for 
his testimony.

   STATEMENT OF TROY MILLER, ACTING ASSISTANT COMMISSIONER, 
INTELLIGENCE AND INVESTIGATIVE LIAISON, U.S. CUSTOMS AND BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Miller. Chairwoman Miller, Ranking Member Thompson, 
Ranking Member Jackson Lee, distinguished Members of the 
committee, thank you for the opportunity to discuss the role of 
U.S. Customs and Border Protection in securing the homeland 
against terrorist threats.
    More than a decade after the terrorist attacks on September 
11, 2001, terrorists continue to focus on commercial aviation 
as their primary target of interest. As this committee knows, 
the Department of Homeland Security, specifically CBP, has been 
aware of and continues to adjust and align our resources to 
address the evolving nature of the terrorist threat to the 
homeland.
    CBP capabilities allow us to rapidly leverage information 
and respond to emerging threats as a part of our intelligence-
driven counterterrorism strategy. Of particular concern are 
those threats that continue to emanate from core al-Qaeda, 
their affiliates, the Islamic State of Iraq and the Levant, 
ISIL, as well as other like-minded terrorist organizations from 
across the globe.
    CBP's Office of Intelligence has focused on the growing 
threat of U.S. citizens and Europeans traveling to the Levant 
to support terrorist activities and those who then return to 
the United States or allied countries. This past May, a 22-
year-old American citizen blew himself up while detonating a 
massive truck bomb at a restaurant in northern Syria. In 
addition, in August, two U.S. citizens were killed near Aleppo, 
Syria, while fighting for extremist groups.
    In order to address this and other emerging threats, CBP's 
Office of Intelligence provides operational and analytic 
support to our front-line officers on a daily basis through 
intelligence-based target rules, situational awareness 
briefings and tactical intelligence, such as link analysis on 
known subjects of interest.
    CBP, in conjunction with our investigative partners, has 
long-standing protocols for identifying, examining, and 
reporting on encounters with persons on the terrorist watch 
list. As a complement to its ability to identify watch-listed 
individuals attempting to travel, CBP also takes steps to 
identify those unknown to the law enforcement and intelligence 
community for further scrutiny. These efforts occur before 
departure from the United States, before departure from foreign 
locations destined to the United States, or upon arrival at 
U.S. ports of entry.
    Through robust information sharing and collaboration, CBP 
continues to work with our law enforcement and intelligence 
community partners to enhance its comprehensive intelligence-
driven targeting program to detect previously-unknown 
terrorists and their facilitators. For example, CBP's research 
and analysis on a recent traveler identified by a partner law 
enforcement agency suspected of being a Syrian foreign fighter 
revealed the identity of a new suspect, a co-traveler, which 
provided previously-unknown information to the investigation 
and expanded our intelligence framework.
    As the foreign fighter threat grows, CBP works in close 
partnership with Federal law enforcement counterterrorism and 
intelligence communities, State and local law enforcement, as 
well as the private sector to counter the threat. In addition, 
the threat posed by Syrian foreign fighters and ISIL is not 
limited to the United States. There is a growing international 
commitment to combatting the shared threat to our security. 
Staff from the CBP's National Targeting Center and our 
Intelligence Office interact with our foreign counterparts, 
including those from the five ``I'' countries, the Middle East, 
Europe, and North Africa on almost a daily basis to collaborate 
on efforts to meet this threat.
    Most importantly, CBP intelligence works aggressively to 
continue to leverage assets and resources across the 
intelligence community and other Federal partners to 
communicate, coordinate, and collaborate with our international 
partners, which enables officers and agents to take the 
appropriate operational response.
    In conclusion, CBP will continue to work closely with the 
DHS enterprise, the Department of State, the Department of 
Defense, the intelligence community, and our foreign 
counterparts to detect and address emerging terrorist threats 
such as those presented by ISIL and identify and address any 
and all potential security vulnerabilities.
    I appreciate the committee's leadership in providing this 
opportunity to join my colleagues in speaking on this very 
serious issue. I look forward to working with the committee on 
this issue and other matters of urgency and priority. I am 
happy to answer any questions you may have.
    [The joint prepared statement of Mr. Miller, Mr. Wagner, 
and Ms. Lasley follows:]
  Joint Prepared Statement of Troy Miller, John Wagner, and Jennifer 
                                 Lasley
                           September 10, 2014
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
today to discuss U.S. Customs and Border Protection's (CBP) security 
measures to protect our Nation from the threat of terrorists and 
terrorist weapons, including threats connected with the Islamic State 
in Iraq and the Levant. I appreciate the committee's leadership and 
your commitment to helping ensure the security of the American people. 
This year, CBP celebrates the 225th anniversary of the establishment of 
the U.S. Customs Service and the important role it played in the 
history of our Nation. Since its merger into CBP in 2003, Customs has 
remained a part of CBP's heritage and a significant presence in the 
continuation of our mission. Today, CBP serves as the front line in 
defending America's borders against terrorists and instruments of 
terror and protects our economic security while facilitating lawful 
international travel and trade. CBP takes a comprehensive approach to 
border management and control, combining National security, customs, 
immigration, and agricultural protection into a coordinated whole.
          cbp's intelligence-driven travel security operations
    As this committee knows, we live in a world of ever-evolving 
threats. From this perspective, CBP is now focused on the literally 
thousands of foreign fighters, including U.S. citizens, who continue to 
gravitate toward Syria to engage in that protracted civil war. Many of 
these are fighting alongside violent extremist groups both in Syria and 
in neighboring Iraq, learning battlefield skills and terrorist 
tradecraft.
    Of the numerous insurgent groups active in Iraq, Islamic State of 
Iraq and al-Sham (ISIS) demonstrated focus on consolidating territory 
in the Middle East region to establish their own Islamic State is of 
particular concern. Since June 2014, ISIS (also known as the Islamic 
State of Iraq and the Levant (ISIL)) and its allies have gained control 
of Mosul, Iraq's second-largest city, captured significant territory 
across central Iraq, and continue to engage with Iraqi security forces 
in that region. In early August, the threat to the Iraqi Kurdistan 
Region increased considerably with the advance of ISIL towards Kurdish 
areas.
    As foreign fighters supporting ISIL's regional aggression retain 
the ability to travel to their countries of origin and beyond, they 
have the potential to threaten the homeland.\1\
---------------------------------------------------------------------------
    \1\ Sources for ISIL background: Reflections on the Tenth 
Anniversary of The 9/11 Commission Report, http://bipartisanpolicy.org/
library/report/rising-terrorist-threat-9-11-commission; Transcript/
Remarks as Delivered by The Honorable James R. Clapper Director of 
National Intelligence 9/11 Commission 10th Anniversary Tuesday, July 
22, 2014 11:00 a.m.; http://www.dni.gov/index.php/newsroom/speeches-
and-interviews/202-speeches-interviews-2014/1095-remarks-as-delivered-
by-dni-clapper-on-the-9-11-commission-10th-anniversary?highlight=WyJ- 
pc2lsIl0 Iraq Travel Warning, Last Updated: August 10, 2014; http://
travel.state.gov/content/passports/english/alertswarnings/iraq-travel-
warning.html; Airstrikes in Iraq: What You Need to Know http://
www.whitehouse.gov/blog/2014/08/11/airstrikes-iraq-what-you-need-know.
---------------------------------------------------------------------------
    In response to the potential threat posed by ISIL and other 
terrorist groups seeking to gain access to the homeland, CBP, and more 
broadly the Department of Homeland Security (DHS), is continually 
refining our risk-based strategy and layered approach to security, 
extending our borders outward, and focusing our resources on the 
greatest risks to interdict threats before they reach the United 
States. CBP processes nearly 1 million travelers each day at our 
Nation's ports of entry, and about 30 percent--over 100 million a 
year--of these travelers arrive via commercial aviation. Given that 
terrorist organizations primarily seek to use commercial air 
transportation to move operatives into the United States or as a means 
to attack the homeland, our testimony will focus on international air 
travel.
    CBP continually evaluates and supplements layered security measures 
with enhancements to strengthen DHS's ability to identify and prevent 
the international travel of those individuals or groups that wish to do 
us harm. The success of targeted security measures depends on the 
ability to gather, analyze, share, and respond to information in a 
timely manner--using both strategic intelligence to identify existing 
and emerging threat streams, and tactical intelligence to perform link 
analysis and targeted responses.
    Our intelligence-driven strategies are integrated into every aspect 
of our travel security operations. CBP develops and strategically 
deploys resources to detect, assess, and, if necessary, mitigate the 
risk posed by travelers at every stage along the international travel 
sequence--including when an individual applies for U.S. travel 
documents; reserves, books, or purchases an airline ticket; checks-in 
at an airport; while en route and upon arrival at a U.S. port of entry.
Safeguards for Visas and Travel Authorization
    One of the initial layers of defense in securing international air 
travel is preventing dangerous persons from obtaining visas, travel 
authorizations, and boarding passes. Before boarding a flight destined 
for the United States, most foreign nationals must obtain a non-
immigrant visa (NIV)--issued by a U.S. embassy or consulate--or, if 
they are eligible to travel under the Visa Waiver Program (VWP), they 
must apply for a travel authorization.
    For eligible individuals traveling under the VWP, CBP operates the 
Electronic System for Travel Authorization (ESTA).\2\ ESTA, is a web-
based system through which individuals must apply for travel 
authorization prior to boarding an aircraft destined for the United 
States. Through ESTA, CBP conducts enhanced vetting of VWP applicants 
in advance of travel to the United States in order to assess whether 
they are eligible to travel under the VWP or could pose a risk to the 
United States or the public at large. Through information-sharing 
agreements, CBP provides other U.S. Government agencies' ESTA 
application data for the purpose of helping CBP make a determination 
about an alien's eligibility to travel without a visa and for law 
enforcement and administrative purposes. Additionally, CBP requires air 
carriers to verify that VWP travelers have a valid authorization before 
boarding an aircraft bound for the United States.
---------------------------------------------------------------------------
    \2\ Exceptions would be citizens of countries under other visa 
exempt authority, such as Canada. Citizens of countries under visa 
exempt authority entering the United States via air are subjected to 
CBP's screening and inspection processes prior to departure. In the 
land environment, they are subjected to CBP processing upon arrival at 
a U.S. port of entry.
---------------------------------------------------------------------------
    Travelers that require NIVs to travel to the United States must 
apply to the Department of State (DOS) under specific visa categories 
depending on the purpose of their travel, including those as visitors 
for business, pleasure, study, and employment-based purposes. We 
respectfully refer you to our colleagues in the DOS Bureau of Consular 
Affairs for additional details about the visa application and 
adjudication processes.
    In an effort to augment and expand traveler targeting operations, 
Immigration and Customs Enforcement (ICE) has co-located Visa Security 
Program (VSP) personnel at the National Targeting Center (NTC)--a 24/7 
operation where analysts and targeting officers to assess the risk of 
every international traveler at each stage of the travel continuum, 
leveraging intelligence materials and law enforcement data. This allows 
ICE special agents and intelligence analysts to conduct thorough 
analysis and in-depth investigations of high-risk visa applicants. The 
focus of the VSP and NTC are complementary: The VSP is focused on 
identifying terrorists and criminal suspects and preventing them from 
exploiting the visa process and reaching the United States, while the 
NTC provides tactical targeting and analytical research in support of 
preventing terrorist and terrorist weapons from entering the United 
States. The co-location of VSP personnel at the NTC helps increase both 
communication and information sharing.
    To further enhance traveler screening efforts, ICE, CBP, and DOS 
are collaborating and have begun to implement an automated visa 
application screening process that expands significantly DHS' ability 
to identify serious threats to National security and public safety at 
the point of inception in an individual's immigration life cycle and 
revolutionizes the way the U.S. Government screens foreign nationals 
seeking entry to the United States. The program also results in 
synchronized reviews of information across these agencies and allows 
for a unified DHS response and recommendation regarding a visa 
applicant's eligibility to be issued a visa. The collaborative program 
leverages the three agencies' expertise, authorities, and technologies, 
such as CBP's Automated Targeting System (ATS), to screen pre-
adjudicated (approved) visa applications. It significantly enhances the 
U.S. Government's anti-terrorism efforts, improving the existing 
process by extending our borders outward and denying high-risk 
applicants the ability to travel to the United States.
    In March 2010, the NTC implemented a new program to conduct 
continuous vetting of U.S. NIVs that have been recently issued, 
revoked, and/or denied.\3\ This recurrent vetting ensures that changes 
in a traveler's visa status are identified in near-real-time, allowing 
CBP to immediately determine whether to provide a ``no board'' 
recommendation to a carrier or recommend that DOS revoke the visa, or 
whether additional notification should take place for individuals 
determined to be within the United States. If a potential visa 
ineligibility or inadmissibility is discovered for U.S.-bound 
travelvers, CBP will request that DOS revoke the visa and recommend 
that the airline not board the passenger. If no imminent travel is 
identified and derogatory information exists that would render a 
subject inadmissible, CBP will still coordinate with DOS for a 
prudential visa revocation. (Note: CBP may recommend that an airline 
not board a passenger even if the passenger holds a valid visa.) If DOS 
has revoked, or if CBP has requested revocation of, an individual's 
visa and the individual is found to be in the United States, CBP will 
notify the ICE Counterterrorism and Criminal Exploitation Enforcement 
Unit for enforcement action. Where applicable, CBP will share any 
derogatory information with U.S. Citizenship and Immigration Services 
to ensure denial of benefits. Additionally, the DOS Bureau of 
Diplomatic Security has over 100 special agents embedded in consular 
sections at 97 U.S. embassies and consulates. These agents have access 
to derogatory information uncovered by CBP and can work with host 
country law enforcement officials to conduct local investigations.
---------------------------------------------------------------------------
    \3\ CBP continually vets against denied NIVs that were denied for 
National security reasons, but not for all NIV denials.
---------------------------------------------------------------------------
Recurrent Vetting
    Vetting of passengers and travel information occurrs repeatedly 
throughout the travel sequence.
    CBP gathers information and assesses risk when travel is booked and 
conducts pre-departure and out-bound screening for all international 
flights arriving in and departing from the United States by commercial 
air. When a traveler purchases a ticket for travel to the United 
States, a passenger name record (PNR) is generated in the airline's 
reservation system. PNR data may contain information on itinerary, co-
travelers, changes to the reservation, and payment information. CBP 
receives passenger data from commercial air carriers at operationally-
determined intervals up to 96 hours prior to departure and concluding 
at the scheduled departure time.
    Further, Advance Passenger Information System (APIS) regulations 
require that commercial air carriers transmit all passenger and crew 
manifest information before departure, prior to securing the aircraft 
doors. CBP vets APIS information, which includes passenger biographic 
data and travel document information, on all international flights to 
and from the United States against the Terrorist Screening Database 
(TSDB), criminal history information, records of lost or stolen 
passports, public health records, and prior immigration or customs 
violations and visa refusals. CBP uses APIS and PNR data to identify 
known or suspected threats before they depart the foreign location.
    CBP leverages all available advance passenger data including the 
PNR and APIS data, previous crossing information, intelligence, and law 
enforcement information, as well as open-source information in its 
anti-terrorism efforts at the NTC. Starting with the earliest 
indications of potential travel and continuing through the inspection 
or arrivals process, the NTC continuously analyzes information using 
the ATS, a decision-support tool for CBP officers. CBP matches 
travelers' information against risk-based criteria developed based on 
actionable intelligence derived from current intelligence community 
reporting or other law enforcement information available to CBP.
    CBP's pre-departure vetting efforts work in concert with 
Transportation Security Administration's (TSA) Secure Flight program, 
which vets 100 percent of passengers flying to, from, over, and within 
the United States, as well as international point-to-point U.S. 
carriers, against the No-Fly, Selectee, and expanded Selectee portions 
of the TSDB. Secure Flight provides nearly instant identification of 
potential matches, allowing for expedited notification of law 
enforcement, airlines, and our partners in the intelligence community 
to prevent individuals on the No-Fly list from boarding an aircraft, as 
well as ensuring that individuals on the TSDB with the ``selectee'' 
designation receive appropriate enhanced screening prior to flying. 
Secure Flight allows TSA, CBP, and our partners in the intelligence 
community to adapt quickly to new threats by accommodating last-minute 
changes to the risk categories assigned to individual passengers.
Pre-Departure Programs
    CBP's Pre-Departure Targeting Program utilizes a layered 
enforcement strategy to prevent terrorists and other inadmissible 
aliens from boarding commercial aircraft bound for the United States. 
Three key components of the Pre-Departure Targeting Program are the 
Immigration Advisory Program (IAP), the Joint Security Program (JSP), 
and the Regional Carrier Liaison Groups (RCLGs). IAP and JSP support 
the Pre-Departure Targeting Program with IAP/JSP Officers who are 
posted at 11 foreign airports in the Netherlands, the United Kingdom, 
Japan, Germany, Spain, France, Qatar, Panama, and Mexico. These IAP/JSP 
Officers work with the border security agencies of the host country and 
commercial airlines in order to recommend the denial of boarding to 
high-risk subjects. The RCLGs, which are located in Honolulu, Miami, 
and New York, and are staffed by CBP Officers, are responsible for the 
remaining non-IAP airports around the world. The RCLGs utilize 
established relationships with the commercial airlines to prevent 
passengers who may pose a security threat, have fraudulent documents, 
or are otherwise inadmissible from boarding flights to the United 
States. In fiscal year 2013, through the Pre-Departure Targeting 
Program, NTC identified 5,378 passengers who would have been deemed 
inadmissible to the United States, and coordinated to prevent them from 
boarding aircraft at foreign locations by providing ``no-board'' 
recommendations to carriers.
    CBP's Pre-clearance locations in Aruba, Bermuda, the Bahamas, 
Canada, Ireland, and the United Arab Emirates (UAE) provide another 
avenue of security by providing for the inspection and clearance of 
commercial passengers on foreign soil. CBP Officers are in uniform, and 
have the legal authorities to question travelers and inspect luggage. 
All mission requirements are completed at the pre-clearance port prior 
to travel, including immigration, customs, and agriculture inspections. 
In the UAE, CBP Officers have the greatest authorities of any of our 
other agreements. The UAE receives flights from Yemen, North and East 
Africa (Morocco, Nigeria, Kenya, Ethiopia, and Sudan), Saudi Arabia, 
Pakistan, Iraq, Iran, Lebanon, Bangladesh, and India, all high-risk 
pathways for terrorist travel. The underlying principle of this pre-
clearance agreement is the mitigation of threats, both known and 
unknown, based on our analysis of current threats. There they are 
allowed a full complement of authorities to question and search 
individuals and baggage, access to the full complement of technology 
systems, and are authorized to have access to firearms and other law 
enforcement tools. Additionally, ICE, Homeland Security Investigations, 
has an attachee office located in the U.S. Embassy in Abu Dhabi to 
follow up on any investigative leads generated from CBP pre-clearance 
operations.
Arrival Processing
    Upon arrival in the United States, all persons are subject to 
inspection by CBP Officers. CBP Officers scan the traveler's entry 
documents to perform queries of various CBP databases for exact or 
possible matches to existing look-outs, including those of other law 
enforcement agencies. For most foreign nationals arriving at U.S. 
airports, CBP Officers collect biometrics--fingerprints and 
photographs--and compare them to any previously-collected information. 
Once a verified identity is established, CBP systems will identify any 
watch list information and return the results to the officer for 
appropriate processing. In addition to the biographic and biometric 
system queries performed, a CBP Officer interviews each traveler to 
determine the purpose and intent of their travel, and whether any 
further inspection is necessary based on, among other things, National 
security, admissibility, customs, or agriculture concerns.
    Identifying and separating low-risk travelers from those who may 
require additional scrutiny is a key element in CBP's efforts to 
facilitate and secure international travel. CBP's trusted traveler 
programs, such as Global Entry, provide expedited processing upon 
arrival in the United States for pre-approved, low-risk participants 
through the use of secure and exclusive lanes and automated kiosks.
    Additionally, CBP has established a Counter-Terrorism Response 
(CTR) protocol at ports of entry for passengers arriving with possible 
links to terrorism. CTR protocol mandates immediate NTC notification, 
initiating coordination with the Terrorist Screening Center (TSC), the 
National Counter Terrorism Center (NCTC), ICE, and the Federal Bureau 
of Investigation (FBI) Terrorist Screening Operations Unit (TSOU) and 
National Joint Terrorism Task Force (NJTTF).
Out-bound Operations
    In addition to vetting in-bound flights for high-risk travelers, 
CBP also developed protocols to enhance out-bound targeting efforts 
within ATS, with the goal of identifying travelers who warrant out-
bound inspection or apprehension. Out-bound targeting programs identify 
potential matches to the TSDB, including potential matches to the ``No-
Fly'' List, as well as National Crime Information Center (NCIC) 
fugitives, and subjects of active currency, narcotics, and weapons 
investigations. Additionally, out-bound operations are enhanced by the 
implementation of targeting rules designed to identify and interdict 
subjects with a possible nexus to terrorism or links to previously-
identified terrorist suspects. As with in-bound targeting rules, out-
bound targeting rules are continually adjusted to identify and 
interdict subjects of interest based on current threat streams and 
intelligence.
    Advance out-bound manifest information is also obtained from 
carriers through the APIS system. As soon as APIS information becomes 
available, prior to the departure of a commercial flight, CBP and the 
TSA immediately begin screening and vetting passengers on the out-bound 
flight for possible inclusion in the TSDB, including potential matches 
to the ``No-Fly'' and Selectee Lists, as well as other law enforcement 
look-outs.
Programs and Partnerships
    CBP's Office of Intelligence and Investigative Liaison (OIIL) 
serves as the situational awareness hub for CBP and provides timely and 
relevant information along with actionable intelligence to operators 
and decision makers. By prioritizing and mitigating emerging threats, 
risks, and vulnerabilities, OIIL improves CBP's ability to function as 
an intelligence-driven operational organization and turns numerous data 
points and intelligence into actionable information for analysts and 
CBP Officers.
    CBP works in close partnership with the Federal counterterrorism 
community, including the FBI, the intelligence community, ICE, TSA, 
DOS, State and local law enforcement, the private sector, and our 
foreign counterparts to improve our ability to identify risks as early 
as possible in the travel continuum, and to implement security 
protocols for addressing potential threats.
    CBP has partnered with the Department of Defense's (DoD) U.S. 
Special Operations Command (SOCOM) to synchronize planning, 
authorities, and capabilities to enhance each organization's ability to 
rapidly and persistently address threats to the homeland before they 
reach our physical borders. CBP is working with SOCOM components and 
Theater Special Operations Commands (TSOCs) to develop greater 
situational awareness of emerging threats, share intelligence, advise 
on matters of border security, and coordinate enforcement actions as 
appropriate. CBP and SOCOM-Central Command are working together to 
leverage each other's capabilities to affect threat networks, such as 
ISIL, to prevent previously-unknown operational actors and/or 
facilitators from targeting the homeland.
International Partnerships
    As the foreign fighter threat has grown, the international 
community's response must evolve to keep pace. Nations need appropriate 
laws, regulations, and enforcement tools and need to take appropriate 
measures, in coordination with like-minded and transit nations, to help 
prevent the transit of foreign terrorist fighters across borders and 
mitigate terrorist recruitment or radicalization to violence. Nations 
must develop the legal and institutional structures needed to provide 
international cooperation in the criminal investigation and prosecution 
of foreign terrorist fighters. International insitutions, such as the 
United Nations and the International Criminal Police Organization 
(INTERPOL), must also develop and implement appropriate measures to 
address this global challenge.
    As terrorists change their methods and tactics and technologies 
continue to evolve, the international community must adapt as quickly 
as possible. We need to better leverage and coordinate the application 
of existing tools and structures, strengthen on-going efforts, and 
facilitate the development of new innovative tools and approaches to 
preventing and fighting terrorism, while preserving human rights such 
as freedom of expression. We also need nations to more fully exercise 
the tools they already have in place to prevent the movement of foreign 
fighters across their borders.
                               conclusion
    CBP will continue to work with our colleagues within DHS, DOS, FBI, 
DoD, and the intelligence community to address emerging threats and 
identify potential security vulnerabilities. In cooperation with other 
Government agencies and commercial carriers, we will continue to 
implement our multi-layered defense strategy to secure the aviation 
sector against terrorists and others who threaten the safety of the 
traveling public and the security of our Nation.
    Chairwoman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, thank you for this opportunity to testify. We look 
forward to answering your questions.

    Mrs. Miller. Thank you very much.
    The Chairwoman recognizes Mr. Wagner for his testimony.

STATEMENT OF JOHN P. WAGNER, ASSISTANT COMMISSIONER, OFFICE OF 
  FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Thank you, Chairwoman Miller, Ranking Member 
Thompson, Ranking Member Jackson Lee, distinguished Members of 
the committee. It is a privilege to appear today to discuss the 
efforts of U.S. Customs and Border Protection in securing 
international travel against the threats of terrorists and 
their supporters.
    In response to the potential threat posed by the Islamic 
State of Iraq and the Levant, other terrorist groups and 
supporters, including those who are U.S. citizens, CBP and DHS 
continually refine our border security operations, focusing our 
resources on the greatest risks and extending our security 
measures outward to interdict threats before they reach the 
United States.
    Because terrorist organizations continue to primarily 
target commercial air transportation as a means to move 
operatives into the United States to attack the homeland, I 
will focus our operational efforts to detect and respond to the 
threats in the air environment. Last year, CBP processed over 
100 million travelers at our Nation's airports. We have 
developed and strategically deployed our resources to detect, 
assess, and mitigate the risk posed by travelers at every stage 
along the international travel continuum, including when an 
individual applies for travel documents, reserves or purchases 
an airline ticket, checks in at the airport, while en route, 
and upon rival.
    Before a foreign national travels to the United States, 
they are first required to apply for a non-immigrant visa with 
Department of State or for eligible Visa Waiver Program 
travelers, a travel authorization from CBP through the 
Electronic System for Travel Authorization, also known as ESTA.
    Before issuing the visa, the Department of State screens 
each applicant to identify potential risks or ineligibilities. 
Through ESTA, CBP screens Visa Waiver Program applicants in 
advance of travel in order to assess eligibility and potential 
risk to the United States. In this fiscal year, CBP has denied 
ESTA applications for yearly 300 travelers for security-related 
reasons.
    Now, once travel is booked, but before the flight departs, 
CBP obtains and analyzes all airline data, including 
reservation information, also known as PNR, Passenger Name 
Records, and manifest information, also known as APIS, or 
Advance Passenger Information, which contains the passport, 
biographical data, and the flight information, to assess the 
risk of all passengers, regardless of citizenship or visa 
status.
    CBP's National Targeting Center analyzes traveler data and 
applies intelligence-driven targeting rules, as just described 
my by colleague, Mr. Miller, to conduct a risk assessment. If 
derogatory information or other risks are discovered, CBP is 
able to take action in several ways overseas prior to actual 
travel so we can address these concerns.
    So in order of descending authorities and capabilities, we 
have pre-clearance, we have the immigration advisory program, 
and then we have our regional carrier liaison groups. Our 
highest capability overseas is pre-clearance, where CBP 
Officers operate on foreign soil, in uniform, with search 
authorities and operational capabilities similar to what we 
have in the United States.
    Travelers are questioned, queried through our database, and 
inspected before they board the aircraft. Pre-clearance 
requires an agreement with the host country to allow us to 
operate in such a manner, but after the flight is pre-cleared 
at a foreign airport, the flight is generally treated as a 
domestic flight once it arrives in the United States.
    There are currently CBP Officers and Agriculture 
Specialists stationed at 16 locations in six countries. Pre-
clearance officers this year have refused entry to 24 travelers 
for security-related reasons. Our pre-clearance facility in Abu 
Dhabi, which just opened this year, is of critical importance 
as it is a transit hub for numerous high-risk pathways for 
terrorist travel, which gives CBP a critical security operation 
in a strategic location.
    Next is the Immigration Advisory Program, where we have CBP 
Officers in plain clothes at 11 foreign airports in nine 
countries to work with air carriers and foreign authorities to 
work and identify potential threats. They have no search 
authority per se, but can question travelers in an advisory 
capacity and can recommend additional security screening or 
recommend an airline not board a traveler based on the pre-
departure vetting I described earlier occurring at our National 
Targeting Center. So far in this fiscal year, IAP has 
recommended that foreign airlines deny boarding to over 60 
passengers for security-related reasons.
    In locations without pre-clearance or IAP operations, we 
utilize our regional carrier liaison groups that have 
established relationships with commercial airlines to prevent 
passengers who may pose a security threat, have fraudulent 
documents, or are otherwise inadmissible from boarding flights 
to the United States. These regional carrier liaisons basically 
are in constant contact with the airlines to exchange this 
information.
    Now at all points in the travel continuum, CBP continues 
vetting passengers and travel information, including visas and 
ESTA authorizations, to ensure that any changes in a traveler's 
eligibility are identified in near-real-time. This continual 
vetting allows us to coordinate appropriate actions, such as 
referring individuals for further inspection upon arrival. So 
far this year, recurrent vetting has caused almost 400 
previously-approved ESTAs to be revoked for security-related 
reasons.
    Upon arrival in the United States, all travelers are 
subject to inspection. Our officers review entry documents, 
conduct interviews, run appropriate biometric and biographic 
queries against law enforcement databases. We also have 
conterterrorism response protocols in place at ports of entry 
for passengers encountered with possible links to terrorism, 
which mandates immediate coordination with our National 
Targeting Center, coordination with our partners at the FBI and 
the Terrorist Screening Center or the National Counterrorism 
and ICE.
    CBP also conducts out-bound operations, leveraging all 
available advance travel information and utilizing 
intelligence-driven targeting rules specific to the out-bound 
environment to identify, when appropriate, interview, or 
apprehend travelers for law enforcement or security-related 
reasons.
    So thank you for the opportunity to testify today, and 
thank you for the attention you are giving to this very 
important issue. I stand ready to answer any of your questions.
    Mrs. Miller. Thank you very much, Mr. Wagner.
    The Chairwoman now recognizes Ms. Lasley.

  STATEMENT OF JENNIFER A. LASLEY, DEPUTY UNDER SECRETARY FOR 
ANALYSIS, OFFICE OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Ms. Lasley. Thank you, Chairwoman Miller, Ranking Member 
Thompson, Ranking Member Jackson Lee, and distinguished Members 
of the committee. I am pleased to be here today with my 
colleagues from CBP and State Department to discuss the threats 
to the homeland from foreign fighters traveling to Syria to 
participate in the conflict there and what we in DHS are doing 
to mitigate the threats.
    As you have correctly stated, the on-going conflict in 
Syria has emerged as an unprecedented draw for more than 12,000 
foreign fighters, including more than 1,000 Europeans and over 
100 U.S. persons who have joined or seek to join the fight 
there. Our concern remains that these individuals, if 
radicalized, could return to their home countries or to the 
United States and use their newly-acquired skills to carry out 
attacks.
    We have already seen an example of this in Europe, where in 
May, a French national who fought alongside the Islamic State 
of Iraq and the Levant in Syria is charged with conducting a 
successful attack against a Jewish museum in Brussels, killing 
4 people.
    Although we currently have no credible information to 
indicate that the Islamic State of Iraq and the Levant, or 
ISIL, is planning to attack the homeland, we remain concerned 
in the long term that their access to Westerners and to safe 
havens in the Middle East and the Levant will allow them to 
plan and coordinate attacks in the United States.
    More broadly, veteran al-Qaeda fighters have traveled to 
Syria from Pakistan to take advantage of the permissive 
operating environment, as well as their easier access to 
foreign fighters, particularly Europeans and U.S. persons. We 
are therefore concerned that Syria could emerge as a base of 
operations for al-Qaeda's international agenda, which could 
include attacks against the homeland.
    We also remain concerned that U.S. persons who link up with 
violent extremist groups in Syria, regardless of their original 
reasons for traveling to the country, could gain combat skills, 
extremist connections and possibly become radicalized or be 
further persuaded to conduct organized, coordinated, or lone-
wolf attacks potentially targeting U.S. and Western interests.
    Because DHS border, transportation security, and 
immigration personnel are at the front lines of many encounters 
with potential Syrian foreign fighters, the Department is 
working to ensure that they have the most up-to-date 
information and can act on it in coordination with law 
enforcement and ICE partners as appropriate.
    I&A is working to inform DHS and State and local law 
enforcement partners about observable indicators of U.S. 
persons planning or attempting to travel to Syria. We have 
produced tailored assessments on the motivations of U.S. 
travelers, their travel patterns, the role social media is 
playing in radicalization to violence, and the ways in which 
U.S. persons are providing material support to Syria-based 
extremist groups.
    We also have partnered with the FBI to produce joint 
intelligence bulletins and other products for State and local 
law enforcement on trends in observable behaviors in 
individuals seeking to travel to Syria to join the fighting. 
I&A is also partnering with DHS operational components, 
particularly CBP, TSA, and USCIS, to help identify foreign 
fighters or other terrorists who may be seeking to travel to 
the United States, and we are working with international--I am 
sorry--interagency partners to disrupt their travel or take 
appropriate law enforcement steps.
    We work every day to leverage our unique DHS data to ensure 
that individuals who are not fully identified in intelligence 
channels can be appropriately watch-listed and denied entry 
into the United States.
    Finally, we work hand-in-glove with the Department to 
provide intelligence assessments that support the Visa Waiver 
Program, a program that DHS has managed since 2003 in 
consultation with State Department, that facilitates low-risk 
travelers into the United States for tourism and business. 
Countries participating in this program must undergo a rigorous 
review process and agree to share terrorist and criminal 
information with the United States.
    Our intelligence assessments, which are one factor in the 
country reviews, look at a number of criteria for determining a 
country's eligibility to participate in the Visa Waiver 
Program, including the terrorist threat to the United States 
posed by nationals of that country, the counterterrorism 
capabilities of that country, the state of information sharing 
between the U.S. Government and that country, and the security 
of passports and other identity documents. Using similar 
criteria, we participate in DHS-led reviews of all Visa Waiver 
Program countries, which must occur at a minimum every 2 years 
to evaluate whether a country should remain in the program.
    These are just a few of the ways in which we are working to 
keep the homeland safe from terrorism threats and those posed 
by returning foreign fighters. Thank you very much for the 
opportunity to speak with you today about these important 
issues, and I look forward to your questions.
    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Ms. Johnson for her 
testimony.

STATEMENT OF HILLARY BATJER JOHNSON, ACTING DEPUTY COORDINATOR, 
     HOMELAND SECURITY AND MULTILATERAL AFFAIRS, BUREAU OF 
           COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ms. Johnson. Thank you. Chairwoman Miller, Ranking Member 
Thompson, Ranking Member Jackson Lee, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear 
today on behalf of the State Department and with my colleagues 
from the Department of Homeland Security or DHS.
    We are very deeply supportive of DHS's efforts to protect 
the U.S. homeland, and we make every effort to amplify its work 
through diplomatic engagement with our allies and partners. We 
remain gravely concerned by the activities of terrorists in 
Syria and Iraq, including the Islamic State Iraq and the 
Levant, or ISIL, and al-Nusra Front. We have seen in Syria a 
trend of foreign fighter travel for the purposes of 
participating in the conflict, largely driven by global 
connectedness through the internet and social media, on an 
unprecedented scale. So we at the State Department are working 
closely with countries affected by the foreign fighter problem 
to counter the threat these fighters pose.
    The Department of State works closely with DHS to support 
its mission in protecting the United States by promoting 
effective border security screening with our foreign partners 
through enhanced information sharing. For example, we believe 
it is in our best interests to share terrorism screening 
information with select foreign governments, as all of us face 
a global terrorist threat that does not recognize National 
boundaries. To this end, we work closely with the terrorist 
screening center, which implements information-sharing 
agreements with foreign partners, including Visa Waiver Program 
countries. These agreements allow partners to conduct name 
checks for incoming flights to their countries, which helps us 
to deter terrorist travel and creates an extra layer of 
security for the United States.
    We also work closely with our partners at DHS to strengthen 
global aviation security by engaging foreign partners to 
bolster aviation screening at last points of departure airports 
with direct flights to the United States. We do this to 
identify and prevent known or suspected terrorists from 
boarding commercial flights and to prevent terrorist attacks 
against global aviation.
    Additionally, the Department of State is leading 
interagency efforts to engage with foreign partners to prevent 
and interdict foreign extremist travel to Syria, and we work 
closely with the interagency, including DHS, to expedite 
comprehensive approaches. This work includes facilitating 
information exchanges with foreign partners, building partner 
capacity, and developing shared objectives.
    Ambassador Robert Bradtke, senior adviser for partner 
engagement on Syria foreign fighters, leads this work for the 
State Department and has met with officials from the European 
Union member countries, North Africa, the Gulf, the Balkans, 
and East Asian Pacific to discuss and examine our shared 
concerns about this threat. Important progress has been made, 
but more work remains.
    Countries in the Balkans have recently adopted or are 
considering more comprehensive counterterrorism laws. In the 
Gulf, countries such as Kuwait, Qatar, and Saudi Arabia have 
increased penalties related to terrorist financing. Several 
have established the necessary architecture to enforce their 
counterterrorism laws more effectively.
    The European Council recently called for the accelerated 
implementation of E.U. measures in support of member states to 
combat foreign fighters. This includes finalizing an E.U. 
passenger name record, or PNR, as we have mentioned here today, 
proposal by the end of this year and increasing cooperation 
with partner nations such as the United States to strengthen 
border and aviation security in the region.
    We will continue to work closely with partners in the 
coming months to enhance this cooperation and build on our 
efforts to date. In the week of September 24, President Obama 
will chair a United Nations Security Council summit on the 
rising threat posed by foreign terrorist fighters. This 
presents a unique opportunity to demonstrate the breadth of 
international consensus and concern regarding the foreign 
terrorist fighter threat and to build momentum for policy 
initiatives on this topic at home and abroad.
    That same week, Secretary Kerry and the Turkish foreign 
minister will co-chair a Global Counterterrorism Forum, or 
GCTF, ministerial meeting. At this meeting, GCTF members will 
adopt the first-ever set of global good practices to address 
the foreign terrorist fighter threat. GCTF members will also 
launch a working group dedicated to working globally to 
mobilize resources and expertise to advance implementation of 
these good practices.
    In conclusion, the Department of State remains deeply 
supportive of DHS's efforts to protect the U.S. homeland and 
make every effort to support its work through our diplomatic 
engagement efforts. This is a critical component to combatting 
terrorist travel.
    I look forward to answering your questions and working 
closely with you and our friends and allies across the globe to 
make the United States safer. Thank you.
    [The prepared statement of Ms. Johnson follows:]
              Prepared Statement of Hillary Batjer Johnson
                           September 10, 2014
    Chairwoman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
today on behalf of the State Department with my colleagues from the 
Department of Homeland Security (DHS). We are deeply supportive of DHS' 
efforts to protect the U.S. homeland and make every effort to amplify 
its work through diplomatic engagement and information sharing with our 
allies and partners.
    We remain gravely concerned by the activities of terrorists in 
Syria and Iraq, including the Islamic State of Iraq and the Levant 
(ISIL) and al-Nusrah Front. ISIL is an extremely dangerous organization 
operating in a chaotic part of the world. It has exploited the conflict 
in Syria and sectarian tensions in Iraq to entrench itself in both 
countries, now spanning the geographic center of the Middle East. 
ISIL's attacks in Iraq and Syria have resulted in the deaths of 
thousands of people and the displacement of hundreds of thousands more 
from their ancestral homelands. ISIL has brutally targeted all groups 
who do not fit their narrow world view including some Sunnis, Shia, and 
religious and ethnic minority groups. In Syria, as in Iraq, ISIL has 
committed wide-spread atrocities, including torture, murder, the taking 
and execution of detainees, and hostages sexual violence, and forcible 
displacement.
    We have seen in Syria a trend of foreign fighter travel for the 
purposes of participating in the conflict--largely driven on an 
unprecedented scale by global connectivity that is available through 
the internet and social media. ISIL operates an extremely sophisticated 
propaganda machine and disseminates timely, high-quality media content 
on multiple platforms, including on social media. We have seen ISIL use 
a range of media to attempt to aggrandize its military capabilities, 
including showcasing the executions of captured soldiers, and evidence 
of consecutive battlefield victories resulting in territorial gains. 
More recently, the group's supporters have sustained this momentum on 
social media by encouraging attacks in the United States and against 
U.S. interests in retaliation for our air strikes. ISIL has also used 
its propaganda campaign to draw foreign fighters to the group, 
including many from Western countries.
    It is difficult to provide a precise figure of the total number of 
foreign fighters in Syria, though the best available estimates indicate 
that approximately 12,000 fighters from at least 50 countries--
including over 100 U.S. persons--may have traveled to Syria to fight 
for ISIL or al-Nusrah Front since the beginning of the conflict. These 
fighters not only exacerbate regional instability, but create real 
threats to U.S. interests and our allies. We are working closely with 
countries affected by the foreign fighter problem set to counter the 
threat these fighters pose. As we have built a common picture of the 
threat with our allies, so, too, we continue our efforts to build 
consensus around joint initiatives and complementary approaches to 
sustain a broad and comprehensive approach.
                         securing u.s. borders
    The Department of State works closely with the Department of 
Homeland Security to support its mission in protecting the United 
States by promoting effective aviation and border security screening 
with our foreign partners through enhanced information sharing. For 
example, an important effort in our counterterrorism work is Homeland 
Security Presidential Directive Six (HSPD-6), a post-9/11 White House 
initiative. Through HSPD-6, the State Department works with the 
Terrorist Screening Center to negotiate the exchange of identities of 
known or suspected terrorists with foreign partners to enhance our 
mutual border screening efforts.
    The Terrorist Screening Center implements these agreements with 
foreign partners. These agreements allow partners to name-check 
incoming flights to their countries, which helps us deter terrorist 
travel, creating an extra layer of security for the United States.
    HSPD-6 agreements or arrangements are a pre-requisite to 
participate in the Visa Waiver Program (VWP). To date, we have 43 such 
agreements in place which includes VWP partners, and we continue to 
actively seek out new partners.
    The Department of State also works closely with its partners at the 
Department of Homeland Security to strengthen global aviation security 
by engaging foreign partners in bolstering aviation screening at last 
point of departure (LPD) airports with direct flights to the United 
States to identify and prevent known or suspected terrorists from 
boarding commercial flights.
                       foreign terrorist fighters
    Additionally, the Department of State is leading interagency 
efforts to engage with foreign partners to prevent in the first place 
and, where possible, to interdict foreign extremist travel to Syria. We 
strongly believe that a whole-of-Government approach is the only way to 
truly address the threat, and we work closely with our interagency 
colleagues to facilitate comprehensive approaches. This work includes 
facilitating information exchanges with foreign partners, building 
partner capacity, and developing shared objectives focused on 
addressing the foreign fighter threat. Ambassador Robert Bradtke, 
Senior Advisor for Partner Engagement on Syria Foreign Fighters, leads 
this work for the State Department and has met with officials from 
European Union member countries, North Africa, the Gulf, the Balkans, 
and East Asia and Pacific, to discuss and examine our shared serious 
concerns about the foreign terrorist fighter threat. Ambassador Bradtke 
and other Department counterparts have led sustained efforts to urge 
reform and build capacity for whole-of-Government and whole-of-society 
approaches to counter this threat, notably encouraging information 
sharing and border security, legal reform and criminal justice, and 
countering violent extremism.
    Important progress has been made, but more work remains. Countries 
in the Balkans recently have adopted or are considering more 
comprehensive counterterrorism laws. In the Gulf, countries such as 
Kuwait, Qatar, and Saudi Arabia have increased penalties related to 
terrorist financing and several have established the necessary 
architecture to enforce their counterterrorism laws more effectively, 
such as Kuwait's newly-created Financial Intelligence Unit and Qatar's 
establishment of a charity abuse review board.
    Some of our partners have implemented legal reforms aimed more 
directly at countering foreign terrorist fighters. For example, 
traveling overseas to participate in combat has been newly criminalized 
in the Balkans, Canada, and Jordan. The United Kingdom and Indonesia 
have banned participation in groups such as ISIL, while Malaysia has 
publicly opposed ISIL and its activities.
    Countries have taken a variety of steps under existing laws and 
regulations to inhibit foreign fighter's resources or travel. Canada, 
New Zealand, Australia, and eight European countries have the authority 
to revoke the passports of suspected foreign fighters.
    The European Council recently called for the accelerated 
implementation of E.U. measures in support of Member States to combat 
foreign fighters, including finalizing an E.U. Passenger Name Record 
(PNR) proposal by the end of this year, and increasing cooperation with 
partner nations such as the United States to strengthen border and 
aviation security in the region.
    In all our efforts with our partners, we stress the importance of--
and facilitate implementation of--adhering to a rule of law framework. 
We are encouraged by these and other reforms to counter the foreign 
fighter threat. While we have seen progress, our efforts must be 
sustained and intensified. We will continue to work closely with 
partners, particularly those in the Middle East, North Africa, and 
Europe in the coming months to enhance cooperation and build on efforts 
to date.
     multilateral initiatives and the global counterterrorism forum
    We are also working the foreign terrorist fighter issue actively on 
the multilateral front. The week of September 24, President Obama will 
chair a United Nations Security Council (UNSC) Summit on the rising 
threat posed by foreign terrorist fighters, no matter their religious 
ideology or country of origin. This rare UNSC leader-level session is 
the first U.S.-hosted Head of Government-level UNSC session since 
President Obama led a UNSC Summit on non-proliferation in September 
2009, and it presents a unique opportunity to demonstrate the breadth 
of international consensus regarding the foreign terrorist fighter 
threat and to build momentum for policy initiatives on this topic at 
home and abroad. In addition to a briefing from U.N. Secretary-General 
Ban Ki-Moon and brief remarks from leaders of all 15 UNSC members, this 
summit is expected to adopt a U.S.-drafted UNSC Resolution during the 
session.
    That same week, Secretary Kerry and Turkish Foreign Minister 
Cavusoglu will co-chair a Global Counterterrorism Forum (GCTF) 
ministerial meeting, where GCTF members will adopt the first-ever set 
of global good practices to address the foreign terrorist fighter 
threat (FTF) and launch a working group dedicated to working with GCTF 
members and non-members alike to mobilize resources and expertise to 
advance their implementation. The good practices cover the four central 
aspects of the phenomenon: (1) Radicalizing to violent extremism; (2) 
recruitment and facilitation; (3) travel and fighting; and, (4) return 
and reintegration. They are also intended to shape bilateral or 
multilateral technical or other capacity-building assistance that is 
provided in this area. This effort will allow our practitioners and 
other experts to continue to share expertise and broaden skills in 
addressing the FTF challenge.
                               conclusion
    We remain deeply supportive of DHS's efforts to protect the U.S. 
homeland and make every effort to support its work through diplomatic 
engagement.
    The State Department is involved in an array of activities to 
counter terrorism and the phenomenon of foreign terrorist fighters, 
such as capacity building, countering terrorist finance, and countering 
violent extremism, my State Department colleagues would be happy to 
brief Congress about these lines of effort at another time.
    Our terrorist adversaries are nimble, and given the vitally 
important imperative to protect the United States and to stay ``one 
step ahead,'' we should ensure that the tools of civilian power 
continue to adapt to serve National security. As I hope you will agree, 
we have focused and sharpened our efforts, but there remains much to 
do.
    I look forward to answering your questions and working closely with 
you in making the United States safer, in conjunction with our friends 
and allies across the globe.

    Mrs. Miller. Thank you all very much.
    This subcommittee--and our full committee, but certainly on 
our subcommittee--has had a number of hearings about visas, 
about our visas, about the status of our visa programs. We 
certainly have had a lot of discussion about the Visa Waiver 
Program in a hearing that we had a year ago this month, in a 
hearing in March of this year. This subcommittee has asked a 
lot of questions about the Visa Waiver Program, and so we 
certainly understand that the program started back in the mid-
1980s really to expedite tourism and travel, which was a very 
good idea at that time.
    But the world is changing. As we think about things that we 
need to do to grow our economy, we also have to consider some 
of these various processes and systems that we have in place 
with other countries, our allies, our friends, and what kinds 
of programs we have actually put in place that put America at 
risk.
    So to that, I guess my first question would be--we have 
heard a lot of testimony here today and even in our opening 
statements about estimates as many as 12,000 foreign fighters 
coming from so many European countries that can travel Western 
passports that are in the visa--some countries that are in the 
waiver program, et cetera. One of the things, obviously, in the 
Visa Waiver Program requires information sharing.
    As we sit here on the day before--we are talking about 9/
11, really--one of the things that the 9/11 commission 
recommendations--a recommendation that they made--an 
observation that they made that always sticks in my mind is how 
we had to move, really, from the need-to-know information to 
the need-to-share information.
    Information sharing is such a critical component to be a 
country that is participating in the Visa Waiver Program here 
with the United States. We certainly see, for instance, the 
passenger name record, the PNR data, which we can utilize to 
identify fighters or suspicious travelers or what have you, we 
see our ally, as I mentioned in my opening statement, the 
United Kingdom being so great on sharing information. Everybody 
gives them accolades for their sharing of information with us.
    But some of the other European countries may be not so 
good. Even in our own hemisphere, it appears that Mexico is 
pretty good. At least I have heard that. Canada--there have 
been some concerns raised about information sharing there.
    I guess I would say, first of all, how many countries do we 
currently have? I think it is close to 30. Are there any that 
have ever been eliminated from this program? Are there any that 
we are thinking about? Are there things that the agencies are 
able to do to really be much more aggressive about making sure 
that we are getting the information that we think we need 
shared with us, in order for these--the countries to 
participate in the visa waiver? Are there things that we need 
to be doing legislatively to assist the agencies?
    I am not quite sure who I am directing this question to. 
Who would like to start with that, Mr. Wagner, Ms. Lasley? Yes.
    Ms. Lasley. I can certainly give you a little bit of 
background in terms of how many members we have today in the 
Visa Waiver Program. So currently, we have 38 members, 30 from 
Europe, 7 from the Asia-Pacific region, and 1 in Latin America.
    It is my understanding that we have--since the inception of 
the program, as you--as you stated, in the 1980s, two countries 
have been taken from the Visa Waiver Program list. That was 
Argentina and Uruguay. But it was many years ago, and it was 
not because of terrorism-related issues but more economic 
issues.
    Mrs. Miller. Is there any thought about--as I say, is there 
anything that you need from us legislatively to assist you in 
being more aggressive about--I mean, if there are these kinds 
of concerns about information sharing from any of these 
countries, should we be much more aggressive about the 
information that we think we need in order to feel comfortable 
to continue to have visa waiver eligibility from these various 
countries?
    Mr. Wagner. So we do get a lot of information from these 
countries. You know, we do--they do sign the information-
sharing agreements. We do do the biennial--every-2-year review 
of the countries and their procedures. They do report their 
lost and stolen passports. Then all the travelers do fill out 
the ESTA application, where we get about 17 data elements, 
which we run through a series of background checks, and then 
the recurring checks, some of the numbers I mentioned earlier.
    You know, we denied this fiscal year, which is coming to 
close in a couple weeks, 285 ESTA applications for security 
reasons. We have revoked 393. This was after it was issued. 
When we do our recurring vetting, new information had come to 
light that caused us to issue that revocation. Our total 
applications we have denied this year is over 35,000. So it is 
a small number of the overall denials, but yes, a very 
consequential and important number.
    So some of the things we are looking at is reviewing all of 
our procedures, our data collection efforts. Are we getting the 
right data elements? Are there other elements we need? Are 
there other elements we can use? You know, how does it impact, 
you know, the privacy of individuals? How does it impact our 
travel and tourism facilitation efforts, as well? You know, 
what would we do with the data if we collected it? But these 
are the things we are reviewing, along with many other--our 
other procedures and things we continue to do in all of our 
programs.
    Mrs. Miller. Following up on that, we talk about the ESTA, 
which stands for the Electronic System for Travel 
Authorization, as you know, was added as a security requirement 
actually by Congress after 9/11. Previous to that, we didn't 
have--we didn't have the ESTA. As you mentioned, 17 different 
elements that you are asking on the form, Mr. Wagner--the name, 
obviously, the name, passport number, et cetera, et cetera, 
information elements that you are obtaining that you can then 
check against our databases, et cetera.
    But the full visa application, you have to have about 110 
pieces of information apparently that are required. In regards 
to the ESTA--and I was taking some notes when you were saying 
here about the ESTAs that have been revoked and denied, et 
cetera.
    I actually am drafting some legislation right now, and I 
guess this is one of the things I am going to ask you here. I 
am drafting legislation currently, hope to be introduced 
perhaps even today, that we would clarify what the purpose of 
ESTA actually is, that we need to ensure that terrorists don't 
get on airplanes, and then asking the Department to tell us 
what other changes to ESTA may be necessary to increase 
security.
    So I am again asking you, I guess, for your--what your 
thought is on legislation like that. Do you think the agencies, 
again, have the authority, short of any Congressional 
legislation, to ask for additional--it would seem to me--I am 
not in your business, but it would seem to me that asking for 
additional information, particularly from a number of these 
countries that are in the Visa Waiver Program, more than just 
the 15 or 17 pieces of information would be something that 
would be under consideration.
    Again, do you think you have the authority to do that, 
understanding that ESTA was initiated, again, by the Congress 
after 
9/11, after the commission from their recommendations, and 
should we be giving you legislation to assist you there?
    Mr. Wagner. Thank you. We are reviewing this, as well as a 
number of other programs that we have. I--part of that review 
is: Do we need additional authorities to collect additional 
information? I believe in ESTA, we have--I believe we have the 
authorities, but that is one of the things we are reviewing, 
what other types of information would we need? Could we use it? 
How would we use it? How would we collect it? Is it verifiable 
information? Is it useful information? Do we have systems to 
actually make use of that data that we would collect, and would 
it be helpful?
    So we are looking at those things. As an operational 
organization, we are always looking for additional data and 
additional data sources, but again, with respect to people's 
privacy, and you know--is there a useful need for us to collect 
that information, and can we actually put it to use?
    But you know, in general, as coupled with the PNR and the 
airline data, it really helps us paint a better picture of 
travelers and where they are going, for how long, and what 
other information we can relate that to. So having, in general 
terms, a broader set of data to allow us to identify 
individuals or even identify individuals who are not the person 
we are looking for because we have the additional data and we 
can dismiss any connections we may think are there with the 
person, so--but that is one of the things, balancing the 
privacy and the costs and where we would keep the information.
    Mrs. Miller. Just being cognizant certainly of my time 
here, but I am going to ask one other additional question, and 
think about this a bit, because in addition to that piece of 
legislation, I am also preparing a piece of legislation that 
would seek to clarify the authorization that I think the 
Department of State already has, in order to revoke passports. 
We are looking at what Cameron is doing in the United Kingdom 
certainly and with dual citizenship, et cetera.
    Again, we are a very free and open society, but we are 
living in a changing world here. Whether or not you have the 
authorization to revoke these passports--how can we help you 
clarify that? Because I was looking through the--trying to 
become familiar with exactly what has to happen to lose your 
citizenship.
    For instance, it talks about if you are entering or serving 
in the armed forces of a foreign state. So perhaps that is 
ambiguous a bit when we are talking about terrorist 
organizations because they are not really a foreign state. 
These are the kinds of things that I think this committee is 
looking for today from you. We want to give you the tools that 
you need to help you to protect the homeland. If there is a 
flaw in what we have, it is not strong enough, we need to get 
that kind of feedback from all of you.
    I don't know if anyone has any comment on that before I go 
to the next Member.
    Ms. Johnson. Just briefly, the State Department does have 
the authority to revoke passports on National security grounds. 
We are very concerned, as you know, about the over 100 
Americans that are in the foreign fighter ranks.
    We do work with--very closely with our law enforcement and 
intelligence partners on information because we don't just 
unilaterally revoke passports, of course. But this is a 
consular affairs bureau issue set. So we are reviewing right 
now in consultation with our law enforcement and intelligence 
partners our current tools at our disposals and authorities 
because this is a big concern, that we want to look to be able 
to use that authority if we need it, but not interrupt 
legitimate travel of other U.S. citizens who are constructively 
engaged in the region.
    Mrs. Miller. I appreciate that. I would just mention that 
time is of the essence here, I think. I think you can see that 
because of the consternation on behalf of the American people 
of this. So this is not an issue we just sort of want to go off 
there infinitum. I think you are going to be looking at some--
as I say, I am one Member that is going to be introducing 
legislation today about these issues. I am trying to assist 
you, and you know, we will see how quickly the Congress can 
actually act. But we are looking for feedback from all of you.
    With that, the Chairwoman recognizes the Ranking Member, 
Ms. Jackson Lee from Texas.
    Ms. Jackson Lee. Again, let me thank the Chairman and thank 
my Ranking Member, and as well, the Chairman of the full 
committee. Again, this hearing is not to draw you over here to 
the United States House as much as it is to make an important 
statement of oversight to act.
    I started my remarks by saying that in the--and on the eve 
of 9/11, and although there has been much commentary of the 
potential threat that ISIL poses, I am not willing to cede the 
point and agree to those who have a perspective that the United 
States may not be in the eye of the storm.
    I think the way we respond to it is experienced and 
balanced and sure as it relates to providing security for our 
citizens. I thank you all for being on the front lines of doing 
that. That is what the Department was created for, and that is 
what the committee is created for, as well.
    So I want to go to a pointed question. In the collaboration 
between State and the Department of Homeland Security in 
particular, intelligence, and dealing with CBP, is it your 
thought that the ISIL actions in Syria and Iraq and the ISIL 
profile could be a threat to the United States? Mr. Miller.
    Mr. Miller. Yes, ma'am. With as you stated, over 100 
Americans that have traveled to fight with ISIL and Nusra Front 
and other extremist groups overseas, plus--and Western 
Europeans, I do believe that it could be a short-term and a 
long-term threat to the United States.
    Ms. Jackson Lee. Mr. Wagner.
    Mr. Wagner. Yes, I also agree. You know, looking at the 
systems we have and how we look at, you know, the information 
we get from the airlines with a person's reservation 
information and looking at their itineraries and other 
characteristics of their travel, you know, do they fit what we 
know about, you know, what the intelligence reporting are known 
factors?
    Are these--are we identifying individuals that then we want 
to have a further inspection with and try to--you know, to talk 
to them and try to determine what their purpose and their 
intent of travel is.
    We have good systems to be able to do that. We have good 
intelligence reporting to help us build those characteristics 
we are looking for, and we get good information from Department 
of State and other entities. When we do want to take actions 
against known individuals, then we have the systems in place to 
identify them and figure out what point in that process we need 
to intercept them and have that discussion.
    Ms. Jackson Lee. Ms. Lasley.
    Ms. Lasley. Ma'am, we certainly assess that ISIL presents a 
long-term threat to the country. We know that their leader back 
in January spoke of a direct confrontation with the United 
States. As I said, we don't see a near-term threat directly 
from them, no evidence yet of that. But they do have a very 
sophisticated and savvy media campaign, especially a social 
media campaign. I think our near-term concern is that that 
campaign will be quite appealing to individuals who would seek 
to radicalize, whether they are over in Europe or they are here 
in the homeland. They could conduct an attack on their own at 
any time, based on that media campaign. So that is a very clear 
near-term concern that we have.
    Ms. Jackson Lee. Ms. Johnson.
    Ms. Johnson. We would echo all of those comments. I think 
for both the State Department, it is not just the homeland, but 
our U.S. citizens overseas. So we are also looking at that 
aspect. We know ISIL's stated threats and objectives against 
the United States. So we look at our protection of our U.S. 
citizens overseas, as well as our missions and are always 
adjusting our posture accordingly.
    Ms. Jackson Lee. Let me ask a specific question. Thank you. 
As both Mr. Miller and Mr. Wagner knows, and as we all know, 
the two acts of beheading were clearly directed toward the 
sentiments, the infrastructure values of the United States, and 
certainly, as Ms. Johnson has said, attack on our citizens that 
were overseas.
    To Mr. Miller and Mr. Wagner: Following upon the line of 
questioning of Chairwoman Miller, I am concerned as to whether 
or not we do have the kind of coordination that is actually 
needed. I guess I don't want to use the term ``imminent.'' I 
think creating hysteria is not the intent of this committee.
    But I also hesitate to be able to solidly predict ISIL's 
threat level, inasmuch as we are reminded of our posture on the 
day before 
9/11, 2001. So let me just--in the manner in which you can 
answer the question, feel comfortable about the level of 
coordination in this climate.
    Mr. Miller, I would like to hear what level, how intense 
your coordination is, how comfortable you are with the 
coordination. What do you need to make it better? I would ask 
Mr. Wagner that question.
    Mr. Miller. Our coordination with the intelligence 
community and the law enforcement community in the United 
States is stronger than ever. We are working this threat daily, 
whether it is with the FBI and the intelligence community.
    Our foreign counterparts--we are working with them. I just 
met with the Australians and the United Kingdom yesterday. 
There is stronger and stronger sentiment for information 
sharing from our European partners, as well. We can explain 
some of our relationships, burgeoning relationships in a 
Classified environment more fully.
    Ms. Jackson Lee. Mr. Wagner.
    Mr. Wagner. We take that information and we make 
operational decisions based upon it. Getting that information 
is really critical to us making the right decisions on how we 
operationalize that information.
    One of the things, you know, we would like to see is a 
stronger response from some of our partners overseas and 
emulating some of the ways we do our border security 
management, as was referenced earlier, you know, use of PNR and 
use of the airline manifest information in trying to take 
actions in advance of travel and not waiting until that person 
shows up on your doorstep to figure out what to do with them.
    I think we would encourage all of our allies around the 
globe to consider those types of systems and those practices. 
We work very closely with a lot of countries in helping build 
up that capacity.
    Ms. Jackson Lee. I have about two questions, if I might, 
just finish very quickly. Ms. Johnson, I understand that it is 
somewhat difficult to track the travel of foreign terrorists. I 
would like to know what the State Department is doing and how 
you are improving tracking the travels of foreign terrorists 
and coordinating with your fellow collaborating nation-states 
about whether you are doing that.
    Ms. Lasley, if I can ask you the question of our level of 
intelligence in the climate of what we are in now, and 
backtrack it to 9/11, where we were saying quite the contrary. 
We didn't have a slight inkling of what was going to be 
happening that next day. Are we in a better place, and is there 
something more that you need? Ms. Johnson.
    Ms. Johnson. Thank you. Obviously, working with our foreign 
partners is an on-going effort. Everyone has different legal 
regimes and privacy concerns, but they are very concerned--our 
foreign partners are very concerned about the foreign fighter 
terrorist threat, and we are working with them very closely. As 
I mentioned, the European is now looking at the Passenger Name 
Record situation, hoping to adopt something by the end of this 
year. That will help us at the United States for the CBP 
Officers to be able to understand who is coming and who is 
traveling. We are----
    Ms. Jackson Lee. Do you think the No-Fly List can be made 
more robust?
    Ms. Johnson. The No-Fly List?
    Ms. Jackson Lee. Yes, make it more robust?
    Ms. Johnson. I think for the No-Fly List, I think we are 
working very--all the time talking about how to we can work the 
No-Fly List to make sure it has got accurate information, that 
is it is operational. We do share that information with foreign 
partners so they know who is on the No-Fly List. We have worked 
on aviation screening generally with our foreign partners, 
particularly last point of departure airports. They are 
enhancing their own screening efforts. That helps us prevent 
people from even getting on planes, including from other parts 
of the world to our European allies' airports.
    As I mentioned, our information-sharing agreements, 
particularly with the visa waiver partner countries, but also 
additional countries under Homeland Security Presidential 
Directive 6. We share biographic information with foreign 
partners. A lot of that information, again, is individuals on 
the No-Fly List and those who need to be more screened.
    We also have something I think that DHS and DOJ can talk 
about, the preventing serious crime agreements, which also 
collects biographic--or I am sorry, biometric information, 
mostly fingerprints--to exchange that information. So there are 
a lot of capabilities there to enhance our border security 
screening and track terrorist travel.
    Mrs. Miller. I am going to ask in the interests of time 
here--we are way over the time here--that Ms. Lasley answer her 
question in writing.
    The Chairwoman now recognizes the gentleman--the Ranking 
Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman. Mr. 
Wagner, from time to time, Congress has in its infinite wisdom 
cut the budget of the agencies who are tasked on the front line 
to keep us safe. In the present budget, are you comfortable 
that you can provide the security and assurance necessary that 
CBP is doing all it can to keep bad people from getting into 
the country?
    Mr. Wagner. Yes, I believe we can. I think CBP was 
fortunate enough to, you know, be one of the few organizations 
that did see a very generous budget, including the addition of 
2,000 CBP Officers this fiscal year. In the administration's 
request for 2015, there is also a request for another 2,000-
plus officers, which we know are critically important to 
securing the economy, but also then securing and facilitating--
securing and countering this threat.
    Mr. Thompson. I understand the manpower. But I am concerned 
about technology and some other things necessary to support the 
increase in people along the border. I am looking at the 
international side of it.
    Mr. Wagner. Well, we use those officers to deploy them in 
places like pre-clearance overseas, deploy them in our 
immigration advisory program, deploy them to our National 
Targeting Center, to be able to--when we collect the 
information, we collect the intelligence reports and 
operationalize that, it is CBP Officers and analysts and 
others, too, but principally CBP Officers, based on their 
experience and their knowledge in turning that into actionable 
operational entities and being able to question these travelers 
at different points in their travel continuum to address that.
    Mr. Thompson. So it is not a matter of resources. So are 
you satisfied with the coordination between the agencies in 
terms of identifying these individuals coming to this country?
    Mr. Wagner. Yes. I think we have seen that it has been 
better than ever at this point. As these threats continue to--
you know, to appear, you know, the information sharing and the 
coordination get stronger and stronger, and you know, our 
systems integration to make sure our databases are talking to 
each other. So when State Department takes an action against a 
visa or a passport, it appears in our database so we can take 
action when that traveler tries to travel or begins their 
travel.
    Mr. Thompson. Let's take that example. Is that a real-time 
identification, or is there lag time?
    Mr. Wagner. It would be a real-time identification that 
that information appears in the different systems, and then we 
try to access it in--far in advance of a person's travel as we 
can in order to take the appropriate action or to address 
whatever kind of questions we have. So yes.
    Mr. Thompson. Ms. Johnson, there has been some discussion 
about revoking of passports. For the committee's edification, 
are the present rules for revoking passports as robust as they 
need to be, given this present ISIS threat that potentially is 
expanding?
    Ms. Johnson. Thank you. I know our consular affairs bureau 
is working with our law enforcement and intelligence community 
partners to review all of our options, and I believe they are 
looking at that, as well. I can take that back to have our 
lawyers and the consular affairs bureau provide a more fulsome 
answer, if you would like.
    Mr. Thompson. Well, I would. But if you would, are you 
comfortable, with the present protocols in place that if those 
individuals are identified, that the passport cancellation 
process would fully comply with that cancellation?
    Ms. Johnson. I think that is a question that consular 
affairs bureau could answer better. But I believe it is in real 
time. When we revoke passports, I believe--I don't know how 
many we have done--that it is pretty quick. But again, we do it 
in consultation with the law enforcement and the intelligence 
communities so there should be operational activities working 
side-by-side on that very quickly, I imagine.
    Mr. Thompson. Can anybody else address that question? Well, 
can you get Consular Affairs to provide it? I think one of the 
questions that we are contemplating is whether or not, when 
these individuals are identified, that we are doing everything 
we can to keep them from getting back here to American soil. If 
there is some question as to whether or not that is, in fact, 
taking place, we need to plug any potential gap that exists.
    I yield back, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman very much.
    The Chairwoman now recognizes the Chairman of the full 
committee, the gentleman from Texas, Chairman McCaul.
    Chairman McCaul. I thank you, Madam Chairwoman, for holding 
this important hearing, very timely. I thank you for your 
leadership, as well.
    Tomorrow, we will observe the 13th anniversary of the 9/11 
terrorist attacks. While we have made a tremendous amount of 
progress since that tragic day in 2001, we have to continue to 
be vigilant and be one step ahead of our adversaries. Today, 
ISIS is the biggest threat to the homeland. These terrorists 
are brutal, driven, and intent on attacking the United States.
    The job of this committee is to help ensure that this does 
not happen. The largest concern is ISIS's recruitment of 
foreign fighters, many of whom have Western passports that 
could ease their travel into Europe and into the United States 
to carry out attacks. The fact is, you don't know what you 
don't know, and we only have estimates of how many Westerners, 
these foreign fighters, are in ISIS ranks, and potentially 
thousands that we do not know who they are.
    One of the biggest worries from a counterterrorism 
perspective is the unknown terrorists, those with no criminal 
record or intelligence traces, who could use a valid U.S. 
passport or the Visa Waiver Program to enter and exit the 
homeland.
    For example, in May, a 22-year-old Florida man who joined 
al-Nusra in Syria, an al-Qaeda affiliate, killed 16 people and 
himself in a suicide bombing attack against Syrian government 
forces. U.S. officials say he was on their radar screen, but 
acknowledged that he traveled back to the United States before 
returning to Syria without detection.
    It is also key for the administration to take the real 
steps to stop the radicalization of our youth so that they do 
not leave for jihad. This week, I visited the CBP's National 
Targeting Center to observe the hard-working men and women who 
are responsible for preventing travel by terrorists and those 
with terrorists ties and others who we have on various watch 
lists. The work they do targeting obscure information and 
connecting the dots to keep dangerous people out of the United 
States is vital to stopping ISIS.
    Let me say I am hopeful--I am very hopeful that tonight--
and I have talked to the Secretary, Jeh Johnson--I am very 
hopeful that tonight, we will hear from the President to take 
the advice of his chairman of Joint Chiefs, General Dempsey, 
that the only way you can defeat ISIS is to attack them 
wherever they exist. I am hopeful tonight that the President 
will come out strongly on the issue because it is a matter of 
National security, and it is a matter of homeland security that 
we do so, that we stop them over there before they can come 
here.
    That is really the whole purpose of this hearing, one 
flight away, because these individuals are just one flight 
away. So I would like to ask the panel--you know, we have seen 
this gentleman from Florida get in and out undetected. We saw 
Tamerlan Tsarnaev, who was on the radar, get--leave this 
country and come back and pull off a terrorist attack in 
Boston.
    What assurances can you give me that that will not happen 
in the future, Mr. Wagner?
    Mr. Wagner. Thank you. So looking at the lessons we learned 
with Tsarnaev and looking at--you know, we had access to 
certain pieces of information, and certain pieces of 
information, you know, weren't--weren't reading or actions 
being followed up in closing a lot of those gaps. We learned a 
real hard lesson with the Christmas day bomber. Here was a guy 
that we had in our sights, but you know, not really realizing 
his intentions at the time. We were waiting for him on the 
ground.
    You know, taking a look at those procedures and getting--
connecting better the pieces of information we have and taking 
action against a person as far in advance of them boarding that 
plane as possible, whether that is revoking their visa so when 
they check in with the airline, the airline is not able to 
print a boarding pass because the ESTA has been revoked or the 
visa has been revoked, or having our pre-clearance officers 
overseas question and talk and search a person before they get 
on-board that aircraft, or IAP officers that are working in 
conjunction with the airlines and the foreign authorities to 
question people and talk to them and try to determine a 
person's intent.
    You know, with all the systems that we have and all the 
data we collect, we can look for patterns, we can look for 
pieces of information. We can connect known pieces of 
information. But determining a person's intent is a really 
difficult, difficult challenge, one best brought--really 
uncovered by questioning a person and using our skills to be 
able to do that and our search authorities to be able to do 
that.
    Chairman McCaul. Now, when I talked to the Secretary, we 
talked about these Visa Waiver Program countries, the ability 
to get more information and more data from these countries so 
that we do know more about these travelers--would you agree 
with that? Could that be--legislatively, would that help you?
    Mr. Wagner. Yes. As an operational organization, we are 
always looking for additional sources of information to help us 
paint a better picture of a traveler or if we can figure out 
what their intentions are by having access to additional 
information and how we would use it and what circumstances we 
would use it and how we would protect it. But yes, in general, 
I would agree with that.
    Chairman McCaul. I would like to ask Mr. Miller and Ms. 
Lasley on the intelligence side of the house--my biggest 
concern is we don't have sufficient intelligence, human 
intelligence, particularly in Syria, to identify the 100 to 200 
Americans that are over there, that we don't have sufficient 
intelligence on these tens of thousands of foreign fighters 
that could board an airplane and come into the United States.
    I know we are not in a Classified setting, but does that 
disturb you? Is it possible that some of these foreign fighters 
have actually returned to the United States, like the man from 
Florida, and are currently here? Mr. Miller.
    Mr. Miller. Chairman, yes, sir, it does concern us. We 
continue to look at the known terrorists, to look at travel 
patterns, to look at who they are connected to, to look at some 
of the data elements that we may be able to utilize to identify 
future people. We identify--we continue to work with the law 
enforcement and intelligence community to see if there is 
additional data elements that we can utilize to help us 
identify those folks. We continue to work with our foreign 
partners, as well.
    But as you stated, we can give more of what we are doing in 
a Classified environment to put the full picture together.
    Chairman McCaul. Ms. Lasley.
    Ms. Lasley. Sir, I would agree with my colleague's 
comments. We don't have a fulsome picture in all cases. I think 
that is why our interaction with our foreign counterparts in 
particular is quite important, so that where they have citizens 
who are fighting there, we share those identities and that 
information with each other. I know the Department and our work 
with State Department, both DHS and State are working very 
closely to make all of that information known and shared.
    Chairman McCaul. That all sounds great, but when I ask the 
question, do we have a high degree of confidence as to who 
these people are over there, I am always not satisfied with the 
answer. I think the honest answer is we don't. I would urge 
this administration--and I am hopeful that the President 
tonight will articulate a policy, strong policy, since we have 
pulled out of Iraq completely without a Status of Forces 
Agreement, and left the vacuum here now that has developed into 
what is one of the biggest threats to the homeland and Iraq and 
Syria, that we regain that reconnaissance, that intelligence, 
and also that intelligence on the ground to determine who is 
over there so that we can stop them from coming back to the 
United States and killing Americans.
    With that, Madam Chairwoman, I yield back.
    Mrs. Miller. I thank the Chairman for his very insightful 
questions and comments.
    The Chairwoman now recognizes the gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chairwoman.
    We spent a lot of time today discussing the threat of 
Islamic State terrorists gaining entry into the United States, 
but I am also very concerned, as the rest of the committee, 
about those who may already be here. Last year, the 
Government's own nonpartisan fact checker, the Government 
Accountability Office, reported that the Department of Homeland 
Security has lost track of roughly 1 million foreign visitors.
    Mr. Miller, what steps is DHS taking to identify these 
individuals and ensure the American people that they are not 
affiliated with the Islamic State? Wouldn't the completion of a 
biometric entry/exit system help against this threat?
    Mr. Miller. We have over the last several years taken 
several steps, along with HSI or Immigration and Custom 
Enforcement to identify those that have overstayed and 
prioritize them through our automated targeting system. With 
respect to the biometric exit, I would yield to Mr. Wagner.
    Mr. Wagner. Thank you. You know, we are using the 
biographical data now we receive. We receive 100 percent of--
from the airlines of everyone coming in and everyone flying out 
via commercial air----
    Mr. Barletta. But we are not doing land entries and exits.
    Mr. Wagner. We are doing some of it at the land--like, you 
know, we are doing----
    Mr. Barletta. Well, my problem with that is, is that if we 
are not doing it everywhere, we really don't know if somebody 
has left the country.
    Mr. Wagner. Absolutely. Those are the gaps we are trying to 
close. As far as the biometric piece, we set up a demo lab with 
our science and technology branch. It opened a few months ago. 
We invite everyone to come visit it up in Landover, Maryland. 
We have got some scientists there and some very, very 
intelligent people there helping test out what are the right 
biometrics to collect, to record that entry and then 
ultimately, that exit from the United States in the different 
challenging environments that we need to do it, and in real 
time.
    So over the course of this year and into next year, we will 
be piloting different types of biometrics in this demonstration 
lab. We are looking to do a few tests at airports over the 
course of the next year, and then have a good pilot in place at 
the beginning of 2016 at a single airport with what we think 
will be the right technology that we would then expand to 
additional locations.
    Mr. Barletta. We know that terrorist networks have been 
using our porous Southern Border and a broken immigration 
system to enter the United States. Hezbollah has been actively 
setting up terrorist networks in Latin America for decades now 
and are working with the Mexican drug cartels to move 
contraband into the United States. Al-Shabaab has reportedly 
been sending individuals through Central America, take 
advantage of our broken immigration system and claiming asylum 
upon entry, but never showing up for their hearings.
    Ms. Lasley or Mr. Miller, what measures are the Department 
of Homeland Security taking to ensure that the Islamic State 
does not take similar advantage of our porous borders and 
broken immigration system? Is this border crisis that we are 
seeing with the unaccompanied minors a concern that now HHS are 
taking the minors and just dispersing them across the United 
States without the Governors or States or communities even 
knowing who these individuals are--if you can touch on that.
    Ms. Lasley. Sir, certainly, we have had a long-standing 
concern in the Department about known or suspected terrorists 
and groups moving in and out of all of our border areas. So we 
are continually looking at the information and the intelligence 
that we receive, determine credibility of that information. To 
date, we have not had credible reporting that either Hezbollah 
or any other terrorist group has been taking advantage of our 
borders to move individuals in and out.
    It is something we are always looking for, but to date, we 
have not seen credible evidence of that.
    Mr. Barletta. Well, just this week, I have introduced a 
bill that would stop the Federal Government from sending 
unaccompanied minors around the company into our schools, into 
our neighborhoods without any knowledge at all of what is 
happening. You know, I think we really need to look at what 
they are looking at as how to get into the United States and 
kill Americans.
    So thank you.
    Ms. Jackson Lee. Madam Chairwoman, just an inquiry. Could 
you give the gentleman an additional 30 seconds so that I can 
pose a question to the gentleman?
    Mrs. Miller. Yes.
    Ms. Jackson Lee. I thank the gentleman. We have worked 
together on a number of issues. Do you have documentation that 
unaccompanied children ages 2 years old and 4 years old and 6 
years old and 10 years old are, in fact, known terrorists that 
are spread throughout the Nation? Do you have present and 
knowing knowledge and documentation? Maybe we will have to look 
at your documentation in a SCIF, but do you have known 
documentation?
    Mr. Barletta. No, I am not saying that we have known 
documentation that the unaccompanied minors were--85 percent of 
them are the ages of 14 to 17 are----
    Ms. Jackson Lee. But even----
    Mr. Barletta [continuing]. Are known terrorists. But 
shouldn't we--shouldn't we consider that a threat, that we 
don't know anything about these individuals, and they are being 
sent around the United States, especially with the threat that 
is going on in Iraq with ISIS, with our known intelligence that 
they want to come to the United States? Don't you think that we 
are vulnerable without knowing that?
    Ms. Jackson Lee. Well, let me--let me thank the gentleman 
for----
    Mrs. Miller. All right, the time----
    The Chairwoman will now recognize Mr. O'Rourke from Texas 
for his comments.
    Mr. O'Rourke. Thank you, Madam Chairwoman. Appreciate you 
bringing us together for this hearing today and assembling the 
panel that we have.
    I want to clarify the response Ms. Lasley made to Mr. 
Barletta's question or comment and seek further clarity from 
any Member of the panel who would wish to offer it.
    When a Member of the Congress says, we all know that 
terrorist networks are using our Southern Border to enter the 
United States, I think it is very important for all of us in 
our sworn responsibility to know whether or not that is a true 
statement.
    I have been told by DHS categorically as recently as last 
month that there is no evidence, nor has there ever been, of 
terrorists entering the United States from--through the 
Southern Border, our border with Mexico, or that terrorist 
plots have been foiled or intercepted at the Southern Border or 
that terrorist plots have been carried out within the United 
States that have a connection to the Southern Border. That is 
what I heard directly from DHS. Is there any further----
    Mr. Duncan. Will the gentleman yield? Will the gentleman 
yield?
    Mr. O'Rourke. I will.
    Mr. Duncan. An Iranian Quds Force operative tried to cross 
the Southern Border, contacted a--what he believed was a 
Mexican drug cartel. Turned out to be a DEA undercover 
operative in Mexico. His intent was to cross the Southern 
Border and bring nefarious objects with him to assassinate the 
ambassador from Saudi Arabia here in this city at a restaurant 
that you and I may have been attending that night.
    Mr. O'Rourke. Okay. I will----
    Mr. Duncan. That is the facts. I just want to give you an 
example.
    Mr. O'Rourke. I will ask the experts at the panel to answer 
the question.
    Ms. Lasley. Sir, I would reiterate what I stated earlier, 
that we to-date don't have credible information, that we are 
aware of, of known or suspected terrorists coming across the 
border, particularly related to this threat stream or----
    Mr. O'Rourke. Any threat stream.
    Ms. Lasley [continuing]. Syrian foreign fighters.
    Mr. O'Rourke. Mr. Miller and Mr. Wagner, would you like to 
clarify what we have heard so far, either from Members of 
Congress or from your co-panelists?
    Mr. Wagner. Yes, thank you. Building upon that, the numbers 
of known watch-listed individuals that we have encountered at 
the ports, in between the ports on the Southwest Border is 
minimal compared to what we see in commercial aviation. You are 
talking tens versus thousands. It is minimal, from what we have 
seen from watch-listed encounters.
    Mr. O'Rourke. Okay. Mr. Miller.
    Mr. Miller. No, I would reiterate what Mr. Wagner said. In 
addition, we do have very robust information sharing with our 
counterparts in Central America, in Mexico, with the State and 
local partners. In fact, we are embedded in the Texas fusion 
center, our office of intelligence in Arizona. We have a robust 
intel structure, so we continue to look at this. When and if 
that sort of intel surfaced, we would take appropriate action.
    Mr. O'Rourke. Yes. I may submit a question for the record. 
I would like to share it with my colleagues the answers that I 
receive from you all. I would like to know, you know, once and 
for all what the facts support in terms of these repeated 
accusations that the Southern Border is unsafe, that terrorists 
are exploiting it to enter the United States. I want to make 
sure that we address the anecdote raised by my colleague from 
South Carolina. I think that is important, and I want to make 
sure that I know the truth on that.
    This is not new, by the way. I am going to ask for consent 
to submit for the record The El Paso Herald-Post of Friday, 
December 17, 1981, ``Border checked for Libyan hit squad.'' We 
have been projecting our anxiety----
    Mrs. Miller. Without objection.
    [The information follows:]
         Article Submitted For the Record by Hon. Beto O'Rourke
                border checked for libyan ``hit squad''
Inspectors report traffic moving as usual
            by Patricia Lochraum and Jesse Tinsley
            El Paso Herald-Post, Friday, December 17, 1981
    Border inspectors reported business as usual today despite a 
careful lookout for members of a Libyan ``hit squad'' thought to be in 
Mexico.
    Four Middle Eastern travelers have been stopped for further 
investigation since the alert began Monday, said Chief U.S. Customs 
Inspector Andy Towndrow today. None of the four were detained.
    One border inspector has worn a bullet-proof vest for his bridge 
duties, but most of the customs inspectors in El Paso and along the 
Texas border simply stepped up routine inspections of passports, cars 
and purchases, officials said.
    ``It's not exciting to us,'' said customs inspector Rocky Galarra, 
20, at the Bridge of the Americas port-of-entry.
    ``To us it is just dangerous. We don't get any kind of glory 
feeling about this, we just use extra caution.''
    The search has been complicated by Christmas shoppers, who have 
swelled the daily average number of cars or on foot, said regional U.S. 
Customs spokesman Charles Conroy in Houston. The amount increases 
significantly during the Christmas season, he added.
    Some 1,270 Customs inspectors cover that traffic in Texas and New 
Mexico. The INS staff for Texas includes 78 people for the three El 
Paso ports.
    ``We can't afford to take this lightly,'' said Customs director 
Manny Najera, whose runs from Fort Hancock to Columbus N.M. ``So we 
decided to tighten up and check passports and anything else that caught 
our attention.''
    El Paso offices now have composite sketched of the subjects and 
background information. But the distribution was so slow in some areas 
that border officials depended on newspapers for their sketches.
    ``We've seen more on television than we've gotten from the 
government,'' said Mitchell Britt, INS officer in charge at Laredo 
bridges.
    Fred Aoyen, assistant regional commissioner for U.S. Customs in 
Houston, said the information flow had been as rapid as possible 
``without disrupting the national security.''
    Alan Giufni, INS district director in El Paso, said the major local 
impact of the extra checks had been a stackup of Christmas traffic.
    If border officials found someone suspicious attempting to enter 
the country, they would alert local FBI agents, Najera said. The FBI 
declined to comment on the situation.
    U.S. Consul Keith Powell at the U.S. Consulate General in Juarez 
declined comment when asked if he had received any information about 
the ``hit team.''
    Some Federal officials were quoted Thursday saying that Arab 
communities along the border might be sounded for rumors about the 
squad. However, a Lebanese restaurant owner in a sizeable Middle 
Eastern community in Juarez said local feeling is that if the squad 
exists and is trying to cross into the U.S., El Paso would not be the 
city they choose.
    ``It's harder to cross from Juarez than it would be from Tijuana, 
our people feel,'' said George Yanor, 42. ``We hear a lot of talk, but 
absolutely nothing about anyone coming into this area.''

    Mr. O'Rourke [continuing]. Thank you, Madam Chairwoman--
about threats to the United States on the U.S./Mexico border 
for as long as I have been alive. It does not mean that we 
should not be vigilant. It does not mean we should not take 
these threats seriously. But it does mean that we should only 
traffic in the facts and the data, and we should only raise 
these kinds of fears and anxieties when there is--there are 
facts to support them. So I just would ask for my colleagues to 
do that.
    There are a number of questions I have. Most of them would 
probably be more appropriate in a Classified hearing. Here is a 
general one, and with time permitting, would love to get 
everyone's answer.
    We are at war in Iraq right now. We have service members 
flying missions over there. We have boots on the ground and 
advisers. We are about to formalize that war, perhaps to some 
greater degree, after the President's speech tonight and 
potentially with Congressional action.
    What does a greater state of war in Iraq and Syria mean to 
you in the jobs that you do? What additional resources, as the 
Ranking Member asked earlier, authorities and procedures would 
you need to meet additional threats following a greater U.S. 
involvement in those two countries?
    I don't know if we can just have one of you answer just 
briefly. I am out of time. So with the Chairwoman's permission, 
would love another 30 seconds to hear from Ms. Lasley.
    Ms. Lasley. Sir, I would say that we have an imperative, 
and that imperative increases as the threat increases, to share 
information so that we can identify and stop individuals who 
want to come to this country, whether that is with our foreign 
partners, whether that is within the intelligence community or 
whether that is with our State and local law enforcement. So I 
think we will just continue to be very vigilant in making sure 
that that information is broadly shared.
    Mr. O'Rourke. Thank you. Yield back.
    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes the gentleman from Florida, 
Mr. Clawson.
    Mr. Clawson. Thank you for the work you do. Thanks for 
coming and being willing to sit in the crossfire a little bit 
and for your efforts to keep us safe.
    As I went through my own preparation for today's meeting, 
it felt like the VWP is yesterday's tool for today's world. So 
at a 20,000-foot level, the question that kept coming to my 
mind as I worked it with my team--do we optimize yesterday's 
tool for today's world, or do we need to go to a new program 
altogether?
    Maybe that means, you know, at one end of the continuum 
would be visas for everyone, could be less restrictive for 
that, would be more costly than what we currently do, and would 
probably--we would hear some pushback from the tourism industry 
and others.
    I am not taking a position on that, but what I would like 
is for you to take a position on whether you feel we should 
optimize yesterday's tool for today's world, or do we need to 
break the mold a bit here and look for something more current?
    Implied in my question, of course, is bang for buck. How 
much are we spending? How do we measure what we get for those 
expenses? I understand 300 caught, but I know you have more 
sophisticated ways of measuring what we are getting for our 
resources in this effort.
    So I would like to hear all four of you answer how you feel 
whether we ought to continue this current road, whether we can 
see around corners good enough with this information, or do we 
need to go to a new level to protect the future?
    Start with Mr. Miller. Thank you.
    Mr. Miller. Sir, I would agree with you. I think given a 
threat, we need to look at the information we are currently 
collecting, whether it is in the Visa Waiver Program or other 
avenues, and then--and take the appropriate action and decide 
if we need more information to collect.
    As Mr. Wagner pointed out earlier, as operators using our 
targeting system, generally, more information is better as long 
as we can collect it in the right way, given civil rights, 
civil liberties, privacy, and we are able to operationalize it.
    Mr. Wagner. I would just say that, you know, VWP is an 
important program. It does get us information-sharing 
agreements and allows our close allies to share very important 
information with us that we are not getting from countries we 
don't have a VWP agreement with. You know, it requires them to 
issue electronic passports, which helps secure the documents, 
requires them to report lost and stolen passports to us.
    So there are other benefits of what the overall program 
does get us access to and some visibility into. Like Mr. Miller 
mentioned, you know, we are taking a hard look at, are we 
collecting, you know, the right data elements and what other 
information could we make use of, and how would we collect it, 
you know, as we are with many of our programs.
    But I think the program does have value, and you know, but 
a good review and a side-by-side of what VWP versus the visa 
program, you know, would offer and what types of benefits is 
always a good study to undertake.
    Mr. Clawson. Are we doing it? Is anybody doing that?
    Mr. Wagner. Sir, we are reviewing the ESTA program. We are 
reviewing a lot of our different programs, you know, as we 
constantly do in light of the different threats that arise. You 
know, are there gaps in there? Are there gaps in the data 
collection? Are there gaps in how we connect our systems? So 
yes, we are looking at a lot of these things.
    Ms. Lasley. Sir, and I would say that that is across the 
Department. So the Department leadership is really looking at 
all the tools that we have in our toolkit and how we can 
optimize them to make sure that we have got the data that we 
need and that we are stopping people from coming into the 
country who shouldn't be here.
    One of the tools that we have--if I could just highlight 
one that I think we are really trying to optimize is our watch-
listing effort. So we are making a concerted effort within the 
Department to share as much of our Departmental data with our 
colleagues in the intelligence community to make sure that 
individuals are, in fact, put on the watch list.
    We at I&A are responsible for that program on behalf of the 
DNI, and we do that for the entire Department, working with our 
colleagues at CBP, TSA, and others. Over the last 3 years, we 
have significantly increased the number of nominations that we 
in the Department have given to the intelligence community from 
about 4,000 2 years ago to well over 9,000 this year.
    So that is one example of how we are trying to optimize a 
tool that we have in order to stop travelers from coming.
    Ms. Johnson. As I mentioned, we have our information-
sharing agreement with Visa Waiver Program partners. We are 
increasing and strengthening those information-sharing 
agreements and arrangements. In addition to beyond Visa Waiver 
Program, we are expanding the number of those agreements, and 
we work very closely with our interagency partners on that 
watch-listing information to make sure our foreign partners 
have that information, as well. I think those are very strong 
tools.
    Mr. Clawson. I urge you and I urge us to look at secondary 
and incremental and more than incremental efforts in this--in 
what we are doing here. I am a user of global entry for my 
business before I came here. It makes me nervous that you all 
interview me, but you don't interview people that could be 
face-to-face that could be somewhere in Europe that could be 
wanting to come to our country. To my knowledge, I don't think 
we do that. Am I right about that, in the current ESTA program?
    Mr. Wagner. They would get interviewed upon arrival in the 
United States by a CBP Officer, but there is no interview to 
issue that ESTA unless we have a--they come through a pre-
clearance location, where we would interview them before they 
got on-board the plane, or unless some of our targeting systems 
and some of our analysis of their reservation data gave us 
cause for, you know, some type of reason to have our 
immigration advisory program officers, if they are coming 
through one of those 11 locations, talk to them before boarding 
and address any types of questions we have.
    So the possibility is there. We are in a lot of VWP 
countries. We are in, you know, London Heathrow. We are in 
Manchester. We are in Paris. We are in Amsterdam. We are in 
Frankfurt, you know, major gateways, major, you know, places of 
travel, especially for VWP travelers. So we have the 
opportunity if our other systems do flag them for additional 
review or scrutiny.
    Mr. Clawson. Well, if you do a face-to-face with me, I 
would really love you to do it with potential bad guys coming 
from outside our country, as well.
    Thank you for your answers. Yield back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Thank the panel for being here today and for your service 
to our country.
    In February 2014, this year, the director of national 
intelligence, James Clapper, started out testifying before the 
Senate Armed Services Committee by saying, ``looking back over 
my now more than half a century in intelligence, I have not 
experienced a time when we have been beset by more crises and 
threats around the globe.''
    Two days ago, we have a staff meeting on fly-in day, and I 
shared a video with my staff of--there was an ISIS-produced 
video, but it showed young Iraqi men loaded in the back of 
pick-up trucks and dump trucks taken out into the desert and 
murdered, hundreds of Iraqis. It hearkened to times of Pol Pot 
in Cambodia and the Holocaust to watch those images that were 
disturbing of men shot multiple times to make sure they were 
dead as they laid in the trench!
    This is a real threat. We may not think as Americans that 
we may not be interested in Islamic extremism and ISIS and the 
establishment of a caliphate, but I will tell you what. ISIS is 
interested in America, and they are interested in you.
    In June, I traveled to Europe on a codel, and I couldn't 
get many Members of Congress interested in going. We were 
looking at border security and foreign fighter flow--in June. 
If I was to have that same Congressional delegation trip today, 
I would have to turn Members away because the plane wouldn't be 
big enough to travel to Europe to meet with our allies about 
foreign fighter flow.
    I grew up during the cold war, nation-state versus nation-
state, tracking the movements of tanks and large numbers of 
troops along different borders in mainly Eastern Europe. We are 
not tracking troop movement or tank movement today, we are 
tracking individuals, foreign fighters who leave not only 
European countries but this country to travel to fight jihad, 
ofttimes being radicalized and coming back possibly to the 
United States of America to create and commit heinous crimes.
    Is that a far-fetched idea? Well, before I left to travel 
to Brussels, a young man who had traveled to Syria through 
Turkey came back through Germany. Germany tracked his movements 
but failed to let the allies within Europe know about this 
individual. He entered Brussels. He shot up a Jewish museum. At 
least three if not four individuals were killed. Have you heard 
about that on the mainstream media in this country? Probably 
not. I knew about it because I was headed to Brussels and it 
was on our radar screen.
    But this was a jihadist fighter who radicalized, came back 
to Brussels, shot up a Jewish museum, killed individuals and 
tried to flee back to North Africa through France. He was 
caught at a bus stop.
    Free travel, shingen region in Europe, free travel among 
those countries, no border crossings. Guess what? They are visa 
waiver countries, as well. If they didn't know that individual 
had actually traveled to Syria and become radicalized, if he 
would have been--a country that was part of the Visa Waiver 
Program, traveled back to his country unbeknownst to the United 
States personnel, had a valid travel document, possibly could 
have boarded an aircraft and flown to this country.
    We need to be concerned about that. We also need to be 
concerned about Americans. We now have identified a number that 
have traveled over to fight with ISIS, whether it is in Syria 
or Iraq or the Islamic State and whatever it looks like going 
forward. We should be able to revoke the passports of United 
States citizens if they do travel to fight for another 
organization.
    In fact, U.S. law under--I guess it is Section 8 U.S.C. 
1481 says that a U.S. citizen shall lose its nationality by 
volunteering and performing any of the following acts: Entering 
or serving in the armed forces of a foreign state. Now, there 
is a part of the law that says with the intention of 
relinquishing United States nationality. Maybe we need to 
strike that in future law.
    But if you go on ``and committing any act of treason 
against or attempting to force the overthrow or bearing arms 
against the United States''--that is exactly what ISIS and ISIL 
have said. If you go on to other laws, we can revoke a United 
States passport if the Secretary receives certification from a 
State agency that an individual owes arrears of child support 
in excess of $2,500.
    We can revoke their passport just because they don't pay 
child support, but you can't tell me we are going to revoke the 
passports of people that are going to fight with people in ISIS 
that have said, we are coming to the White House, we are going 
to fly that black ISIS-al-Qaeda flag over the White House, who 
have made threats to the United States, who have beheaded two 
American journalists? But we can revoke their passport if they 
fail to pay their child support?
    Secretary shall issue the passport--let's just go on to 
say, the Supreme Court has interpreted Passport Act of 1926 
that gives broad powers to the Secretary to revoke a passport 
when necessary for security purposes.
    We need to revoke the passports of these Americans that 
have gone. We need to keep them from reentering the United 
States when we know who they are. We need to understand, 
America, the challenges of tracking individuals, foreign 
fighters, and as they flow around the world through even some 
allied countries, where they end up.
    Madam Chairwoman, this is an apropos committee hearing. I 
hope this isn't the last one. We have got a lot of threats 
facing our country. I hope that the President comes out 
strongly tomorrow night against this threat to the United 
States of America and the very freedoms that we enjoy.
    With that, I yield back.
    Mrs. Miller. Thank the gentleman, very much.
    I think we are all very interested to hear what the 
President has to say about this issue. I think it is--I would 
guess, certainly in my district, and I think most Members when 
they were home in their districts over the last month, we heard 
about this ISIS threat over and over and over being talked 
about. It certainly has--I think the Nation understands and is 
looking for the President to--he is the commander-in-chief--to 
outline to the country how serious of a threat it is, and what 
we need to be doing as a country to address it.
    Really, the purpose of this hearing----
    Ms. Jackson Lee. Madam Chairwoman?
    Mrs. Miller. In a moment. Really, the purpose of this 
hearing was to talk about what we can do legislatively to 
assist all of you. As I mentioned, I have currently two 
different bills that we are looking at and introducing. I would 
also encourage all of you--for instance, Mr. Wagner, you 
mentioned that you are looking, you are reviewing, as you 
always are, about changes in ESTA, what kinds of things would 
be helpful.
    Please keep us in the information loop. You don't have to 
wait until we have a hearing to let us know what you are doing. 
I know that maybe what you are looking at doing is better 
talked about in the SCIF, but in a Classified situation, but 
still, please keep us in the information loop.
    Does the Ranking Member have a comment?
    Ms. Jackson Lee. I do, thank you very much, very briefly. 
Let me just hope to make sure that Ms. Lasley responds to my 
question and to just put on the record that there is a, I 
think, looming question of watch list, No-Fly List. I think 
this hearing should leave the American public with the idea 
that we are being vigilant and that we are knowledgeable that 
ISIL wants to form an Islamic state, but we balance that with 
our civil liberties and facts.
    So I would ask for the--anyone who may have documentation--
I guess it is in different jurisdictions, but I want to just 
put on the record--documentation on the status or the type of 
unaccompanied children. I would like to get that report from 
anybody who has access to that.
    I would like to yield 15 seconds to--and thank the 
witnesses very much, too--Mr. O'Rourke, very briefly.
    Mr. O'Rourke. Thank you----
    Mrs. Miller. You don't have to yield to him. I will 
recognize the gentleman.
    Mr. O'Rourke. Thank you, Madam Chairwoman.
    My colleague and friend from South Carolina, when I asked 
about a connection to known terrorist plots and the U.S./Mexico 
border, mentioned the Iran terror plot to assassinate somebody 
here in Washington, DC. There is, in fact, from everything that 
I know about this, absolutely no connection to the border. In 
fact, the plotter was interdicted at JFK airport, where he was 
arrested due to our coordination with the government of Mexico. 
The person with whom he thought he was dealing was actually a 
DEA agent posing as a cartel member.
    The border was never exploited. While I think this is a 
serious issue, and again, one against which we must remain 
vigilant, there is no connection to the border. So I invite 
anyone, and especially those who have the subject-matter 
expertise, to tell me if I am wrong. But my understanding is 
that the border is as secure as it has ever been, and we do not 
have any known terror plots tied to the border. Doesn't mean 
that there might not be some, doesn't mean we shouldn't guard 
against it, but let's again deal in the facts.
    Mrs. Miller. All right, I thank the gentleman for his 
comments. I think I would yield to the gentleman--or recognize 
the gentleman from South Carolina, if you would like to 
respond.
    Mr. Duncan. I thank the gentleman. I think that the Iranian 
threat was to come across the Southern Border. It was thwarted 
before it ever happened. So you are right and wrong.
    I will say this. We have no idea who is in our country. For 
us not to recognize that we have open borders and that we have 
no idea who has entered our country illegally and what their 
intentions were--whether it was an intention to get a job and 
provide for their family or whether it was an intention to 
maybe create a terrorist cell and do something nefarious in the 
future, we don't know.
    I met with the security force of the King Ranch in your 
State, 30, 40 miles north of Brownsville, 837,000 acres. It is 
as large as the State of Rhode Island. So they have got their 
own security force. This was 2 years ago. He said, Mr. Duncan, 
we are catching on our property some OTMs. OTM now is a term 
that is only being applied, in the press anyway, to 
unaccompanied children from countries other than Mexico, such 
as El Salvador, Nicaragua, Honduras, Guatemala. But before 
that, OTM meant anyone that wasn't of Mexican descent.
    He said, Mr. Duncan, we are catching folks on our property 
that are African, that are Asian, and that are Middle Eastern. 
This is 50 miles north of the border. They came across the 
border illegally.
    I just met with a Secret Service agent on the sidewalk in 
Washington that was riding a bike, former military guy, served 
nine tours in Afghanistan. That ought to tell you what he did 
in the military. He said part of his training was on the 
Southern Border watching, and they saw thousands of people come 
across the border, they called CBP and nobody showed up.
    He said, part of our work was radio and communications 
intercept, because they were getting ready to go do the same 
thing in Afghanistan. He said, everything we heard was not 
Spanish.
    Wake up, America! With a porous Southern Border, we have no 
idea who is in our country.
    I yield back.
    Mrs. Miller. Thank the gentleman. I thank everyone for 
their passion on this issue. Obviously, there is a lot of 
interest in this. I certainly want to thank all of the 
witnesses for their testimony today. I know some of the 
questions that were asked will be--their--you know, answers 
will be submitted in writing to the committee. We appreciate 
that. With that----
    Ms. Jackson Lee. Thank you, Madam Chairwoman. I just want 
to say thank you. I know that you are ending. I just want to 
say that this is a committee of facts. No one knows and has 
documented that those OTMs were terrorists. I yield back.
    Mrs. Miller. I appreciate that.
    Ms. Jackson Lee. Thank you.
    Mrs. Miller. We would also mention that pursuant to the 
committee rule 7(c), the hearing record will be held open for 
10 days. So without objection, the committee stands adjourned.

    [Whereupon, at 11:53 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

         Question From Honorable Beto O'Rourke for Troy Miller
    Question. According to Deputy Under Secretary for Analysis Jennifer 
Lasley, to date, there is no credible information that indicates that 
known or suspected terrorists have entered through the U.S. border, 
from either Hezbollah or other terrorist groups, including ISIL or 
Syrian foreign fighters. However, there are repeated accusations that 
the Southern U.S. Border is unsafe. What intelligence has the U.S. 
Department of Homeland Security (DHS) or the U.S. Department of State 
collected that may demonstrate whether or not a known or suspected 
terrorist individual(s) or group(s) has entered through the U.S. 
borders, specifically the U.S. Southern Border? Please provide this 
information in a Classified and/or Unclassified manner.
    Answer. Response was not received at the time of publication.
        Question From Honorable Beto O'Rourke for John P. Wagner
    Question. According to Deputy Under Secretary for Analysis Jennifer 
Lasley, to date, there is no credible information that indicates that 
known or suspected terrorists have entered through the U.S. border, 
from either Hezbollah or other terrorist groups, including ISIL or 
Syrian foreign fighters. However, there are repeated accusations that 
the Southern U.S. Border is unsafe. What intelligence has the U.S. 
Department of Homeland Security (DHS) or the U.S. Department of State 
collected that may demonstrate whether or not a known or suspected 
terrorist individual(s) or group(s) has entered through the U.S. 
borders, specifically the U.S. Southern Border? Please provide this 
information in a Classified and/or Unclassified manner.
    Answer. Response was not received at the time of publication.
      Question From Honorable Beto O'Rourke for Jennifer A. Lasley
    Question. According to Deputy Under Secretary for Analysis Jennifer 
Lasley, to date, there is no credible information that indicates that 
known or suspected terrorists have entered through the U.S. border, 
from either Hezbollah or other terrorist groups, including ISIL or 
Syrian foreign fighters. However, there are repeated accusations that 
the Southern U.S. Border is unsafe. What intelligence has the U.S. 
Department of Homeland Security (DHS) or the U.S. Department of State 
collected that may demonstrate whether or not a known or suspected 
terrorist individual(s) or group(s) has entered through the U.S. 
borders, specifically the U.S. Southern Border? Please provide this 
information in a Classified and/or Unclassified manner.
    Answer. Response was not received at the time of publication.
    Question From Honorable Beto O'Rourke for Hillary Batjer Johnson
    Question. According to Deputy Under Secretary for Analysis Jennifer 
Lasley, to date, there is no credible information that indicates that 
known or suspected terrorists have entered through the U.S. border, 
from either Hezbollah or other terrorist groups, including ISIL or 
Syrian foreign fighters. However, there are repeated accusations that 
the Southern U.S. Border is unsafe. What intelligence has the U.S. 
Department of Homeland Security (DHS) or the U.S. Department of State 
collected that may demonstrate whether or not a known or suspected 
terrorist individual(s) or group(s) has entered through the U.S. 
borders, specifically the U.S. Southern Border? Please provide this 
information in a Classified and/or Unclassified manner.
    Answer. We are alert to the possibility that terrorist groups and 
their supporters, including groups such as the Islamic State in Iraq 
and the Levant (ISIL), Hezbollah, and HAMAS, might view the Southern 
U.S. Border as a feasible means to enter the United States.
    ISIL currently poses a threat to the people of Iraq and Syria, and 
the broader Middle East--including American citizens, personnel, and 
facilities overseas. If left unchecked, it could pose a growing threat 
beyond that region, including to the United States. While we have not 
yet detected specific plotting against our homeland, ISIL leaders have 
threatened America and our allies. Our intelligence community believes 
that thousands of foreigners, including Europeans and some Americans, 
have joined them in Syria and Iraq. Trained and battle-hardened, these 
fighters could try to return to their home countries and carry out 
deadly attacks.
    However, there is no credible information suggesting current ISIL, 
Hezbollah, HAMAS, or other violent Islamist extremist individuals or 
groups have entered through the U.S. Southern Border. Furthermore, 
there is no credible evidence of current ties between Mexican organized 
crime groups and domestic or these international terrorist groups, and 
there is no indication that these terrorist organizations use Mexico as 
an entry point to the United States. We continue to monitor the region 
for signs of an increased threat.
    The United States has strengthened our overall law enforcement 
cooperation with Mexican authorities. This cooperation, combined with 
the Mexican government's efforts to address its own internal law 
enforcement challenges and to more effectively police its borders, 
north and south, should help to make the region, including our shared 
border, safer and more secure.

                                 [all]
</pre></body></html>
